<html>
<title> - THE NARCOTICS THREAT FROM COLOMBIA</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





                   THE NARCOTICS THREAT FROM COLOMBIA

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 6, 1999

                               __________

                           Serial No. 106-132

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
65-738                     WASHINGTON : 2001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH, Idaho                   (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          Robert B. Charles, Staff Director and Chief Counsel
             Gilbert A. Macklin, Professional Staff Member
              Sean Littlefield, Professional Staff Member
                          Amy Davenport, Clerk
                    Cherri Branson, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 6, 1999...................................     1
Statement of:
    Beers, Randy, Assistant Secretary, Bureau of International 
      Narcotics and Law Enforcement Affairs, Department of State; 
      Brian E. Sheridan, Assistant Secretary, Special Operations 
      and Low Intensity Conflict, Department of Defense; William 
      E. Ledwith, Chief of International Operations, Drug 
      Enforcement Administration; and Michael Shifter, senior 
      fellow, Inter-American Dialogue............................   104
    McCaffrey, General Barry, Director, Office of National Drug 
      Control Policy.............................................    65
Letters, statements, et cetera, submitted for the record by:
    Bartlett, Hon. Roscoe, a Representative in Congress from the 
      State of Maryland, prepared statement of...................   153
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana:
        Letter dated October 2, 1997.............................    17
        Prepared statement of....................................    22
    Hutchinson, Hon. Asa, a Representative in Congress from the 
      State of Arkansas, prepared statement of...................    60
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................   150
    Ledwith, William E., Chief of International Operations, Drug 
      Enforcement Administration, prepared statement of..........   118
    McCaffrey, General Barry, Director, Office of National Drug 
      Control Policy, prepared statement of......................    71
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida:
        Article dated November 29, 1997..........................     5
        Prepared statement of....................................   147
    Rohrabacher, Hon. Dana, a Representative in Congress from the 
      State of California, prepared statement of.................   152
    Sheridan, Brian E., Assistant Secretary, Special Operations 
      and Low Intensity Conflict, Department of Defense, prepared 
      statement of...............................................   106
    Shifter, Michael, senior fellow, Inter-American Dialogue, 
      prepared statement of......................................   130

 
                   THE NARCOTICS THREAT FROM COLOMBIA

                              ----------                              


                         FRIDAY, AUGUST 6, 1999

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Barr, Gilman, Souder, 
Hutchinson, Ose, Towns, Cummings, and Kucinich.
    Also present: Representatives Reyes and Schakowsky.
    Staff present: Robert Charles, staff director and chief 
counsel; Gilbert A. Macklin and Sean Littlefield, professional 
staff members; Cherri Branson, minority counsel; and Earley 
Green, minority staff assistant.
    Mr. Mica. Good morning. I would like to call this meeting 
of the Subcommittee on Criminal Justice, Drug Policy and Human 
Resources to order.
    The subject of the hearing this morning is the narcotics 
threat from Colombia. As our regular order, I would like to 
start with an opening statement and then yield to those Members 
that are with us. We will be joined by some other Members, but 
we want to get started as we have several panels to hear from 
today.
    This is a very important hearing since our hemisphere in 
the United States is facing one of the greatest challenges to 
regional and national security as the situation with Colombia 
continues to deteriorate. During the past few days, the United 
States military lost five American lives in the war on drugs 
being waged in Colombia. The influx of illegal drugs to the 
United States is our Nation's No. 1 social challenge and the 
most insidious national threat we have faced. Because three-
quarters of the heroin on the United States streets and 
virtually all of the cocaine comes from Colombia today, this 
subcommittee is once again investigating and conducting 
oversight of our administration's counterdrug activities in 
Colombia.
    For the record, I have been to Colombia several times over 
the past few years, most recently in February. I have seen 
firsthand the enormity and complexity of the drug insurgency 
problem there. Even since February, the threat has grown 
substantially. Events in the country appear to be spiralling 
out of control. Colombia is now what military officials call 
situation critical. Many of us on the Hill saw the situation 
coming years ago as this administration repeatedly ignored the 
problem. As a result, Colombia now supplies 80 percent of the 
cocaine entering the United States.
    More disturbing, in just the past 5 years there has been an 
absolute explosion of poppy cultivation in Colombia. High 
purity Colombian heroin in tremendous quantities is now 
flooding our communities. Heroin overdoses have doubled in the 
past 2 years, and that is those ending in fatalities. Since 
1992, heroin use by our teenagers has soared 825 percent.
    Our DEA heroin signature program indicates that 75 percent 
of the heroin seized in the United States originates in 
Colombia. This chart was provided to us by Tom Constantine, the 
former DEA director. If you took this chart several years ago, 
it would be almost zero. Most of it would be coming in from 
southwest Asia, Asia, and Mexico wasn't even on the charts.
    Cocaine was merely processed in Colombia some 5, 6 years 
ago. Now, Colombia is the major producer of cocaine in the 
world.
    Compounding the problem, Colombia faces a full-scale 
guerilla war, one that is financed almost entirely by narcotics 
trafficking. By recent accounts, the armed conflict is now 
raging out of control in Colombia. Rebel insurgents are 
becoming more and more aggressive and killing people 
indiscriminately. In fact, more people have been displaced in 
Colombia than in Kosovo even at the height of the recent 
conflict, and there are indications of a potential mass exodus 
from Colombia. More than 300,000 Colombians were internally 
displaced just in 1998, compared to 230 in Kosovo during that 
same period of time. In short, despite 5 years of congressional 
pleas for assistance to Colombia, countless hearings and 
intense congressional effort, resources approved by Congress 
have failed to be provided to Colombia.
    Two weeks ago today, five American men and one woman from 
the United States Army were killed in the line of duty in 
Colombia when their United States reconnaissance plane crashed 
on a mountain on a counterdrug mission into narcoguerrilla 
territory. This marks the first time in United States history 
that American military personnel have been killed in action in 
Colombia's drug war.
    American blood has also been spilled on Colombian soil in 
other ways. In addition to these five Americans, three contract 
pilots have been killed in Colombia over the past 2 years. 
Three Americans were abducted and brutally murdered by the 
FARC, still not brought to justice. We will show some tape in a 
few minutes that raises questions about why the murderers of 
these Americans have not been captured. They were killed by 
Colombia's largest group of drug trafficking guerrillas earlier 
this year, and numerous Americans have been kidnapped by 
Colombia narcoguerrillas.
    The longest held U.S. hostages are three American 
missionaries from my district, which have been unaccounted for 
since 1993. Additionally, nearly 5,000 Colombian policemen have 
been killed by narcoguerrillas, and nearly 40,000 Colombians 
have been murdered in this conflict over the past decade. In 
fact, more deaths occurred in Colombia last year from the drug 
war than in Kosovo during the recent inhumanity we saw in that 
country. Yet, this war is not recognized by the United States 
and has been largely ignored by this administration.
    Our U.S. drug czar recently confirmed that the dual threats 
of narcotic trafficking and the rebel insurgency have become 
indistinguishable. While the administration grasps for an 
effective policy to deal with what they have now termed an 
emergency, Colombia's narcoterrorism now poses the single 
greatest threat to the stability of our entire hemisphere.
    What brought about this situation and what brought us to 
the brink of this disaster? Today, we will examine this 
question along with a series of other critical issues, 
including this administration's inability or unwillingness to 
deliver drug fighting support and equipment even today to our 
trusted allies in Colombia. Time and again, this administration 
has ignored the emerging situation in Colombia despite 
congressional oversight hearings that have tried repeatedly to 
call attention to the impending crisis.
    In February and July 1997, the subcommittee held oversight 
hearings on the counterdrug problem in Colombia. In March 1998, 
the subcommittee held an oversight hearing on regional 
counterdrug efforts. At the same time, the House International 
Relations Committee held a hearing on Colombia's heroin crisis 
in June 1998. They also held a hearing on the implementation of 
the western hemisphere drug elimination act in March 1999, and 
recently they also held hearings on Colombia and Panama and the 
situation there.
    By contrast, this administration has compounded the 
situation in Colombia by reversing course on important policy 
issues. Just recently, this administration issued a policy 
reversal on information sharing with the Colombian military.
    In 1996 and 1997, when this administration decertified 
Colombia without a national interest waiver, it severely 
undermined the legitimate drug fighting efforts of General 
Serrano, who heads the Colombian National Police, and also 
cutoff IMET training and critical equipment so badly needed in 
that country at that time.
    Executing any effective antinarcotics program has been 
fatally handicapped by the absence of United States' 
intelligence sharing due in part to the reduced air coverage 
after the forced closure of Howard Air Force base in Panama. It 
wasn't bad enough that we did not give them information that we 
should be sharing. We now have a situation, with the forced 
closing of the Panama Air Force base and the United States 
being kicked out of Panama, in which our forward surveillance 
flights are down to almost nothing. This gap in surveillance 
capability has put the entire region at risk now and for many 
months to come.
    This administration has also displayed a schizophrenic 
approach to providing aid to Colombia. While very publicly 
calling for $1 billion in emergency aid last week, the same 
administration requested only $40 million for Colombia just 6 
months ago and blocked assistance--all assistance there 2 years 
ago. Indeed, in a bold display of hypocrisy, the 
administration's fiscal year 2000 budget request did not 
include a single dollar of the $280 million authorized by 
Congress for Colombia under the Western Hemisphere Drug 
Elimination Act, an emergency congressional appropriation which 
was initiated by the former chair of the Drug Policy oversight 
Committee, Mr. Hastert, in the last Congress.
    Yesterday, I found that Mr. Hastert, now Speaker of the 
House, again chaired this responsibility in the previous 
Congress. Saturday, November 29, it is an op-ed, Voice of the 
People, in the Chicago tribune. It is 1997, and this is just 
two sentences out of his statement: With 60 percent of all 
heroin seizures being Colombian dope--now, I showed you the 
chart that we got. We are up to 75 percent, but this was at 
that particular time--what has the Clinton administration done 
to combat this latest craze? The short answer is nothing but 
vacillate.
    Then he also went on to say, the White House and its drug 
czar, Barry McCaffrey, must develop a strategic plan for 
combating the looming heroin problem. He asks why helicopters 
that are Huey helicopters, which can operate safely at 
altitudes, and ammunition must get to Colombia. These are 
questions that he asked in 1997, why they were not getting 
there.
    Without objection, I would like to make this part of the 
record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5738.001
    
    Mr. Mica. This administration has resisted congressional 
efforts to ensure that needed drug fighting equipment makes its 
way to Colombia in a timely manner. The administration has 
fought us on Black Hawk utility helicopters getting to Colombia 
for the past 3 years and to date not a single Black Hawk 
helicopter has yet made it to Colombia. Notably, there is one 
sitting right now on a tarmac in Stanford, CT.
    Likewise, this administration fought us on upgraded Huey II 
helicopters for the Colombian National Police. Again, to date, 
only 2 of 12 upgraded Huey II helicopters have made it to 
Colombia despite the fact that right now 4 Huey II helicopters 
outfitted and ready to go are sitting on a Tarmac in Ozark, AL. 
These Huey II helicopters are vital to protecting planes which 
conduct crop eradication in Colombia and vital to getting the 
cocaine labs and vital to eliminating high altitude heroin 
poppies.
    I will show a tape in a few minutes, and you will also see 
the results on the Colombian forces and what has happened by 
not getting the adequate equipment there.
    Today, there are reports of increased activity by the 
15,000 Marxist narcoterrorist guerrillas also known as the 
FARC. This army of insurgents, heavily financed by the drug 
traffickers, controls nearly one half of Colombia and now 
actually threatens the hemisphere's second oldest democracy.
    As chairman of this subcommittee, I am deeply concerned 
that the FARC army has gone largely unchecked and is expanding 
now beyond Colombia's borders. The United States can ill afford 
further instability in this region. With 20 percent of the 
United States' daily supply of crude and refined oil imports 
coming from that area and with the strategically important 
Panama Canal located just 150 miles to the north, the national 
security implications of Colombian rebel activity spilling over 
into neighboring countries are now enormous.
    I just spoke about 20 percent of our oil supply. I obtained 
some tapes from a private firm, videotapes, and with 
permission, I would like to show them. It takes approximately 
3\1/2\ to 4 minutes. This graphically displays what we are 
facing.
    Could we play those tapes, please?
    These are private tapes by a commercial. Can we advance 
that a little bit? I think they didn't start it at the right 
point. I just want to show 3\1/2\ minutes of it.
    These tapes were taken by a private firm that was hired by 
the oil pipelines to try to protect the oil pipelines there, 
but it shows the kind of equipment that we have been attempting 
to get to the national police, which they don't have. It is 
absolutely incredible that a private firm can get this 
equipment--has gotten this equipment down there. These pictures 
were taken in 1997 and 1998.
    [Tape played.]
    Mr. Mica. Again, we did not get the helicopters that they 
requested there.
    [Tape played.]
    Mr. Mica. These pictures were all taken with night vision 
equipment. Everything you see is at night, and they have never 
been shown before. Again, this is all commercial equipment.
    [Tape played.]
    Mr. Mica. This is a commercial firm identifying the murders 
of three American citizens. Again, all infrared at night.
    Mr. Reyes. What kind of infrared is being used here?
    Mr. Mica. Just a sophisticated infrared, but it is 
commercial.
    This gives you an idea of what is going on there, the 
difficulty we face. The helicopters that were requested by 
Chairman Hastert when he was chairman were not there. The 
equipment is not there. The insurgency that we face, the 
inability of us to even go after--provide equipment to go after 
the murderers of Americans, and yet a commercial firm can 
easily identify them.
    Finally, the ecological damage that is being done to that 
country and the attempts by the Marxist guerrillas to cutoff 
the oil supply, which certainly is in the vital interest of the 
United States.
    In conclusion, with drugs flooding our borders and this 
pending regional turmoil, our vital national interests are 
undeniably at stake in this situation. We face a very serious 
and growing challenge. The question is what policies and 
strategies our country and our executive agencies in this 
administration will adopt to meet the threat and protect the 
vital interests of the United States in this region.
    Excuse me for taking more than my time, but we wanted to 
provide the subcommittee with that information.
    I am pleased at this time to yield to Mr. Towns, who is 
acting as our ranking member this morning.
    Welcome, and you are recognized.
    Mr. Towns. Thank you very much, Mr. Chairman. When you are 
the chairman, you can use a lot of time.
    Mr. Mica. I learned that from you, sir.
    Mr. Towns. Let me begin by first thanking you Mr. Chairman, 
the ranking member, Mrs. Mink, and the members of the committee 
for the work that you are doing in this area. Mr. Chairman, 
thank you for holding this hearing on the narcotics threat from 
Colombia.
    Between 1990 and 1998, Colombia received about $625 million 
in United States counternarcotics assistance. In addition, the 
United States military provides 160 United States service 
personnel as military advisors to the Government of Colombia. 
This infusion of aid has made Colombia the third largest 
recipient of United States military assistance in the world.
    Despite this commitment of money and manpower, the GAO 
estimates that coca production in Colombia has increased by 50 
percent since 1996. In a June 1999, report, GAO estimated that 
Colombia currently produces 80 percent of the world's cocaine 
and 60 percent of the heroin used in the United States. Given 
our level of support and our level of effort, these results 
call our current policy into question. What they would say in 
my neighborhood back in Brooklyn, it appears that we are 
hustling backward.
    It is my understanding that recently there have been calls 
for an additional $1 billion in assistance for Colombia. 
However, given the dismal results we have seen for the money we 
have spent thus far, I am not sure that more money is the 
answer to this question. Additionally, many aspects of the 
situation in Colombia seem to require our reexamination. There 
is a civil war in Colombia that has been going on for 
approximately 40 years. The Government of Colombia has lost 40 
to 50 percent of the country's territory to left wing rebels. 
The State Department and numerous human rights groups have 
reported that paramilitary groups aligned with the army of 
Colombia murder and kill civilians because of their political 
beliefs. And drug traffickers may have corrupted every side of 
this conflict by supplying vast amounts of money and means to 
continue the kind of chaos that allows the traffickers to 
continue their illegal operations.
    Mr. Chairman, there are many problems in Colombia. It seems 
to me that additional military spending will only exacerbate 
the chaos in Colombia. Unilateral United States action is not 
the answer, and I am convinced of that. The Colombians need to 
reignite the peace process. The United States needs to involve 
the international community and especially other Latin American 
countries in a peacekeeping effort. We need to provide 
humanitarian and development assistance to the people of 
Colombia. I think that is important, but, most of all, we need 
to address the cocaine threat here at home by increasing our 
prevention and treatment efforts. We need to have more slots 
for treatment of people, and we need to have a stronger 
education and prevention program.
    Again, Mr. Chairman, let me thank you for holding this 
hearing today. It suits you for all the work that you do in 
this area, and I look forward to hearing from our witnesses. I 
see we have two outstanding Members of Congress who have 
visited that country many, many times, Congressman Gilman and 
Congressman Burton. I look forward to hearing from them as 
well.
    At this time I yield back, Mr. Chairman.
    Mr. Mica.
    Thank you. I would like to recognize our vice chairman, Mr. 
Barr, the gentleman from Georgia.
    Mr. Barr. Thank you, Mr. Chairman.
    I just heard one of the most amazing statements I have ever 
heard, that we are here trying to assist against the 
narcoterrorist war down there, and we have had somebody say 
that trying to provide additional U.S. military assistance, 
much of which has been promised and not delivered for many 
years, will exacerbate the situation.
    I don't know how to respond to that sort of statement. In 
looking at the crisis in Colombia and trying to think up an 
analogy that fits it, I thought of several--the tail wagging 
the dog for many years, where our State Department zooms in 
with an electron microscope and looks at some allegation of 
human rights violation, never mind the vast human rights 
violations perpetrated by the FARC and the other groups.
    I have also thought of Nero fiddling while Rome burns, 
except Nero was replaced by the State Department; or what many 
have tried to do in the State Department over the years and 
that is simply hear no evil, see no evil, speak no evil and 
refusing to acknowledge for years until, apparently, today. I 
see at least the State Department representative will 
acknowledge that there is indeed a narcoterrorist problem 
facing this hemisphere in Colombia.
    But the situation is far beyond trying to find ways of 
describing the mismanagement of the U.S. State Department in 
responding to this threat to our hemisphere. The only bright 
spot is it could be much worse were it not for the work of DEA 
and our military in trying desperately to assist our allies in 
Colombia, most notably the heroic General Serrano, in meeting 
this tremendous threat,despite what seemed to be deliberate 
efforts recently by the State Department to thwart the efforts 
of DEA, refusing to fill billets authorized by Congress for 
additional DEA slots, refusing to allow the provision of 
additional helicopters and gun mounts, and even today 
helicopters that were promised to be down there by the end of 
last month are still sitting stateside somewhere.
    It indeed is a crisis made worse by the fact that the 
United States is going to completely withdraw its forward 
military operations, which have been very important in the 
counternarcotics efforts,from Panama,turning the Panama Canal 
and all of its military assets that we have shared and operated 
with the Panamanians in a very successful effort over the years 
back over to Panama without any provision for continuing that 
very, very strategically important base of operations.
    It will be very interesting to hear from General McCaffrey, 
who has just recently returned; and of course I suppose we 
should thank the State Department for,at least now,recognizing 
that there is a narcoterrorist problem in Colombia. But there 
is indeed a crisis down there, and rather than turn a blind eye 
to it and say our military assistance is causing it, the most 
preposterous statement I can imagine, we ought to be 
desperately searching for ways to assist our allies in 
Colombia. Because this indeed is a serious problem that is not 
just a problem for the people of Colombia, the people of Latin 
and Central America,and the United States,but the entire 
hemisphere. I appreciate our colleagues being with us today to 
share their extensive knowledge on this and look forward to the 
additional panels.
    Thank you, Mr. Chairman.
    Mr. Mica. With the indulgence of the subcommittee, I am 
going to recognize one person from the minority and then 
recognize our two chairmen. have the chairman of the full 
committee and a member of our subcommittee.
    Mr. Cummings, did you want to make a brief opening 
statement?
    Mr. Cummings. Of course, Mr. Chairman. I certainly do.
    First of all, good morning to everyone; and I am certainly 
pleased to be here.
    I want to thank you, Mr. Chairman. We have, serving on this 
subcommittee, tried to address the problems of drugs throughout 
the world and certainly this country; and I am sure that you 
are well aware that I am a strong advocate of sound 
counternarcotics efforts; and I will say it every single time I 
have an opportunity.
    Sometimes I really just think we don't get it. This morning 
I left my community of Baltimore, a drug-infested area where a 
lot of the drugs that we are talking about today have already 
taken the lives of so many children, the same children that I 
watched 14 or 15 years ago as they grew up now walking around 
like zombies. This is only 40 miles away from here. I am very 
concerned about what is happening in Colombia, and I think we 
ought to do everything we can to address this issue.
    I come here today to speak for the dead; the ones who don't 
even know where Colombia is; the ones who, like I said, a few 
years ago had hope; the ones who had become victims. And I call 
them victims because every time I see one of them standing on a 
corner like a zombie, the pain--I cannot begin to tell you how 
painful it is because I know they are in so much pain that they 
don't know they are in pain. And that is why it is so important 
to me and to my district that we concentrate more of our 
efforts on treatment.
    I think Mr. Towns said it quite nicely. He used the term 
``hustling backwards.''
    Let me tell you something. If you don't have a demand, you 
don't have to worry about Colombia. You don't have to worry 
about it. But neighborhood after neighborhood throughout this 
country--and if it has not hit yours, it will. Neighborhood 
after neighborhood. People who cannot afford these drugs right 
now as we speak are breaking into houses to get $5, $10 or 
whatever for crack cocaine.
    What are answers? We have one level of sentences for powder 
cocaine, another for crack. In Baltimore, our jails are filled 
with black men and black women rotting away.
    And so it is that today you say that we come here to 
address this whole issue of Colombia. And sure it is Colombia, 
but there is a direct link--and I admire you, Mr. Burton, and I 
admire you, Mr. Gilman, but I want you to do me a favor. I want 
you to come to my neighborhood and understand why I push for 
treatment so very hard. There are not enough treatment slots. 
We probably have--for every treatment slot that we have, we 
probably have a demand for 100 people who want to get off of 
drugs.
    The chairman said something that I agree with. He said, we 
must look again, in his opening statement, we must look again 
at our strategies and policies and protect the vital interests 
of the United States. Mr. Chairman, I agree with you 100 
percent. We must look at them and reevaluate them. Because as I 
see this Colombian war with these rebels and folk going against 
each other, I don't know how much we can do there, but I know 
what can be done in my neighborhood when some high schools have 
80 percent of the young people dropping out between 9th grade 
and 12th grade, many of them standing on corners going nowhere 
fast. And so if we are going to reevaluate, let us make sure we 
reevaluate to provide more treatment.
    Sixty percent of the heroin used in the United States is 
from Colombia. The Maryland Department of Health and Mental 
Hygiene has estimated 55,000 heroin addicts are in the State of 
Maryland and 71 percent of them live in Baltimore city. Keep in 
mind, Baltimore only has a population of 674,000. I have a 
serious crisis in my district.
    Although I have some concerns regarding the large amount of 
funding requested to address the complex problems in Colombia, 
I am eager to hear from the witnesses today as to how we can 
work together to get these drugs off of our streets. And I 
thank you, and I look forward to the testimony.
    Mr. Mica. I thank the gentleman from Maryland.
    I am now pleased to recognize a gentleman who serves on our 
subcommittee and also chairs one of the most important 
committees in the House of Representatives, the chairman of the 
House International Relations Committee, Mr. Gilman.
    Mr. Gilman, you are recognized.
    Mr. Gilman. Thank you, Mr. Chairman.
    I want to thank our colleagues on our subcommittee for 
holding today's very important and timely hearing on the 
narcotics threat from Colombia and also what we should be doing 
in reevaluating our drug strategy. I appreciate what Mr. Towns 
and Mr. Cummings have said with regard to their concerns and 
criticisms of our existing strategy.
    I want to commend you, Mr. Chairman, for your continuing 
efforts through this committee giving attention to the 
effectiveness of our drug war and focusing the Nation's 
attention on what we should be doing. The presence this morning 
of two full committee chairmen with oversight responsibility in 
the international fight against illicit drugs I think is 
indicative of the seriousness of this problem, especially as 
related to Colombia.
    You have pointed out some very important statistics, Mr. 
Chairman. We all recognize that Colombia is probably one of the 
most significant drug-producing nations in the world, producing 
some 80 percent of the world's cocaine. As if that were not bad 
enough, in the last 6 years and while the administration seemed 
to be looking in another direction, Colombia captured 75 
percent of the American heroin market. It is now producing 80 
percent of the world's cocaine and capturing 75 percent of our 
heroin market.
    Colombia is in our own backyard. It is not over in Asia. It 
is not thousands and thousands of miles away. Its capital city, 
Bogota, is just 3 air hours from Miami. What happens in 
Colombia is immediately effective in our cities and our 
streets, in our school yards and our communities. The deadly 
drugs it produces and exports and the sophisticated drug-
dealing organizations that are in charge of the world's 
trafficking of drugs impact our Nation.
    Illicit drugs are directly linked to the growing strength 
and aggressiveness of the narcoguerrillas who today threaten 
Colombia's very survival as a democracy. Congressman Rangel and 
I, when we were working on the Select Committee on Narcotics, 
stood in the plaza of the capital city of Colombia and saw how 
the drug traffickers had invaded the Supreme Court of that 
country and taken it over and held the judges hostage. I don't 
know if Mr. Towns was with us at that time. It was appalling to 
see how the drug traffickers had their impact on the very core 
of the government of that country. The narcostate status, is a 
term used today very often when they discuss Colombia. Columbia 
is on the verge of becoming a narcostate.
    Our Nation's response under the current administration to 
both the increasing drug threat and the growing insurgency 
menace in Columbia has been benign neglect at best and I 
venture to say gross negligence at worst. We have been 
providing significant funding in many areas, but we have not 
been providing an effective strategy and effective resources.
    The response to the contention that the answer to all of 
this is to reduce demand I think leaves something to be 
desired. I think those of us who have been involved in the drug 
problem--and I have been involved since my coming to Congress 
some 27 years ago--I think we all recognize in examining 
various strategies that you must not just reduce demand, and 
that is important, but you must also reduce supply, and you 
must do both simultaneously. And you reduce supply by going to 
the sources, by eradicating. And then when it gets into the 
mainstream of distribution you interdict, and then when it gets 
to our shorelines you convict and make sure that our police 
agencies have the wherewithal to do that, and then associate 
that with reducing demand through education through our 
curriculum in our schools and then also to treat and 
rehabilitate. But we can't take money from one to give it to 
the others.
    I mentioned to Mr. Cummings, the mayor of Baltimore had 
thought that legalization for a long period of time was the way 
to go. I don't think legalization is the way to go. It only 
proliferates the problem. I think some of the countries 
overseas such as Netherlands and Great Britain tried that and 
found it not to be effective. We must bear in mind that we have 
to focus our attention on all of these areas and do it 
simultaneously and not take the funds from one to give to the 
others as we regrettably have done by our present 
administration. The lives of thousands of our children have 
been affected by the administration's neglect on the source 
side.
    Mr. Cummings, I went to Baltimore. Kweisi Mfume took me 
there to examine some of the problems years ago. And we 
recognized that there are problems in each of our major cities 
and we have to do a better job of educating but also we have to 
cut down the supply that goes to those cities, especially a 
failed one-dimensional drug policy based on treating the 
wounded from drug use here at home. It has not been effective. 
Recognizing that burgeoning Colombian heroin problem in our 
Nation and an absence of an effective strategy by the 
administration, a number of us in the Congress as far back as 
1996 pushed for more aid, more resources to try to stem the 
flow from Colombia. We called for better helicopters for the 
hard-hitting antinarcotics police in Colombia to pursue the 
opium poppy and its source and to get to the higher Andes 
plateau where a good deal of the opium for heroin was growing.
    It has long been our United States' law enforcement 
consensus that getting the Colombian poppy before it is 
processed into heroin was the most cost-effective strategy, 
particularly with the limited growth of some 6,000 hectares of 
Colombian opium. It is a plan that would most likely succeed. 
Geographically, Colombia is bigger than the States of Texas and 
Kansas combined. Its rugged, high-altitude terrain makes 
operations difficult for the law enforcement community. 
Accordingly, air mobility for antidrug operations is critical.
    The courageous Colombian National Police, have lost over 
4,000 in fighting this war. Through the drug eradication 
program, they estimated they have a need for 100 helicopters to 
be able to do the job properly and that they could eradicate if 
they had that kind of equipment; 90 percent of their antidrug 
operations requires helicopters and 40 percent of their time, 
they face hostile fire. You saw what happened to one of the 
helicopters under hostile fire in that short video we just saw.
    Today, the drug police in Colombia have less than 25 
helicopters operating. Only two of the six twin-engine 
helicopters the State Department provided them for opium 
eradication last year are flying today. The rest are ``hangar 
queens.'' You might examine some of the photos over here of 
what they look like. They are sitting in the hangars, incapable 
of conducting the kind of operations that are needed. Is there 
any wonder then why the drug battle at the source has been so 
ineffective in Colombia?
    Yes, we are spending money, but we are not doing it 
effectively or in the right direction. We in the Congress have 
appropriated sufficient money to purchase and directed the 
delivery of over 30 new high-performance, long-range, high-
altitude-capable helicopters to the drug police in Colombia to 
eradicate drugs at their source; and we have continuously urged 
an increased mobility approach since 1996. And, to date, 
despite our continuous urging, regrettably the administration 
has delivered only two of these new helicopters to the drug 
police flight line in Colombia. Regrettably, both of those 
choppers were ill-fitted, ill-equipped, and one was damaged on 
arrival.
    As a result of these kind of failures, the Colombian heroin 
availability in our Nation has been extremely high. The price 
of this deadly Colombian heroin on our streets remains low 
while the purity is higher than we have ever seen, and that 
results in the deaths and overdoses in our communities unabated 
from Colombian heroin that could have and should have been 
eradicated of the source in the high Andes years ago. Yes, 
reduce demand, but also reduce the kind of supply that is 
increasing the demand.
    Mr. Chairman, the administration's failure to get to the 
opium poppy fields of the high Andes in Colombia is directly 
responsible for the massive heroin crisis on the East Coast and 
the United States, and it is not just Baltimore. Our cities in 
New York State are facing a severe heroin impact as well as 
cities across the country.
    If the administration were to devote the same amount of 
effort to the real war on drugs in Colombia as the State 
Department does in explaining to our committees and yours why 
already paid for helicopters have not arrived to Colombia, I 
think we would have won that war by now. If the administration 
was serious about stopping drugs at its source, those high-
performance helicopters would have been in Colombia long ago 
doing the job that Congress intended to do, eliminating hard 
drugs at their source before they reach our shores and before 
they get into cities like Baltimore and elsewhere.
    Accordingly, Mr. Chairman, I urge that when we hear these 
new pleas on some in the administration for massive amounts of 
emergency aid to Colombia for the fight against drugs, let us 
ask why anyone should take them seriously based on the abysmal 
track record of providing aid to date.
    We will hear today about the massive increase in coca 
production in Colombia. That, too, is partially the result of 
this failure to deliver the kind of equipment that is needed by 
the Colombian National Police [CNP].
    Mr. Chairman, Colombia's development as an expanding 
narcostate is not new. In 1997, Colombia overtook Peru as the 
world's No. 1 producer of cocateal. We in Congress pleaded with 
the administration for immediate action, and all we got was 
more dithering. Peru's willingness to take the steps necessary 
to drastically reduce coca production forced producers to move 
across the border into southern Colombia. There the CNP is 
unable to reach the numerous remote coca fields without the 
armed long-range choppers that Congress has demanded.
    There are fundamental differences in philosophy between 
those of us in the Congress who monitor the Colombian situation 
closely and the administration. The administration, without a 
significant counternarcotics strategy of its own, has been 
willing to sit back and has become a cheerleader for President 
Pastrana's fizzling peace process without backing it up with 
aid and support to get at the heart of the problem, the illicit 
drugs financing the growing insurgency in Colombia. President 
Pastrana, Colombia's President, though well-intentioned cannot 
achieve peace from a position of weakness.
    Regrettably, our State Department has contributed to the 
current confused policy of Latin America's oldest democracy. 
That confusion has flowed from meeting with FARC leaders last 
December in Costa Rica and failing in providing this basic 
antinarcotics aid to take away much of the source of the 
insurgency's strength the illicit narcotic moneys; and they are 
substantial, in the billions of dollars.
    Let us make no mistake that we in the Congress want peace 
in Colombia but not on the terms of the narcoterrorists. I 
think that is the direction in which Colombia is heading. The 
actions of the FARC have demonstrated that it has no intention 
of peaceful resolution. It is still kidnapping people, still 
killing people, some of whom are Americans. The future of 
Colombia and the issue of illicit drugs are intimately related.
    The tragic loss of five American servicemen and their two 
Colombian Air Force partners not long ago on a counter- 
narcotics mission in the high Andes shows us that the fate of 
that troubled nation and ours are closely linked. We ignore 
events in Colombia at our own peril, and I hope the alarm bells 
that General McCaffrey has recently sounded are not coming too 
late, and we thank General McCaffrey for sounding that alarm.
    Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentleman, member of our 
subcommittee, chairman of the International Relations 
Committee.
    I am pleased to recognize at this time the chairman of our 
full committee, also an ex-officio member of our subcommittee, 
for his statement.
    Mr. Burton. Thank you very much, Mr. Mica.
    I would like to preface my remarks by saying to Mr. 
Cummings and Mr. Towns that I share their concern about making 
sure that the people that have become addicted have an avenue 
for returning to society, but I would like to point out to them 
that the administration's counternarcotics budget in fiscal 
year 1998 was $16.5 billion for treatment and prevention and 
only $1 billion for overseas eradication. That is not to say we 
should not do more. Maybe we should do more, but we should 
certainly provide more resources to fight the producers and the 
drug cartels around the world.
    There are a number of reasons why Colombia is important. 
One of those is because, should democracy fall there and a 
narcostate prevail, where a Marxist-led government run by the 
FARC narcoterrorists succeed democracy, we are at severe risk 
here in the United States. Colombia is the oldest democracy in 
Latin America. It has vast oil reserves and plenty of untapped 
natural resources.
    The strategic importance of Colombia to the United States 
is that it controls access to the Isthmus of Panama, which will 
control the Panama Canal in just a few months. The world's 
economies rely on access to the Canal. Should Colombia's 
democracy fail, the result could be a domino effect through all 
of Central America.
    Is all this likely to happen? Probably not. But could it 
happen? You bet. It could happen.
    Back in the 1980's, we had a real problem in Central 
America with the Sandanistas and the FLMN in El Salvador, so 
Nicaragua and El Salvador and Guatemala and Honduras were all 
at risk. We thought we had put all of those problems behind us, 
but, in my mind, they have been resurrected by the 
narcotraffickers in Colombia. Because if they succeed there and 
Colombia becomes a narcostate, then the Panama Canal right next 
door, right adjacent to it, is likely to be imperiled, and they 
can move up right through the Central American region, and we 
are going to have an immigration problem that you wouldn't 
believe as well as more military problems.
    The time for action has been upon us for some time. I am 
encouraged that there is finally some concern by the 
administration. They are finally recognizing the need for a 
source country strategy in response to the influx of hard drugs 
on American streets and American school yards.
    Chairman Gilman, Speaker Hastert and Chairman Mica and 
myself have been writing letters and holding hearings for 
nearly 3 years trying to get someone in the White House to pay 
attention. Instead of a source country strategy, we have gotten 
an unbalanced approach, heavy on domestic treatment and 
prevention, which statistics show has failed, and light on 
interdiction and eradication, which is the preference of law 
enforcement.
    It is unfortunate that it took the tragic deaths of five 
Army personnel in Colombia to enlighten this administration 
that there is a problem down there. A blind person could have 
seen there is a problem.
    Colombian President Pastrana has underestimated the FARC's 
capabilities. He has overestimated his own ability to hold 
together a shaky democracy marred by four decades of civil 
strife and supported by a false economy based in large part on 
money from narcotrafficking. By capitulating to the FARC 
demands in the peace negotiations, President Pastrana and 
Colombia's democracy are in worse shape now than when the peace 
process began.
    If we haven't learned anything throughout history, we ought 
to learn this. Appeasement does not work, and giving the 
narcotraffickers an inch is going to encourage them to take a 
mile.
    Someone needs to ask, what does the FARC gain from peace? 
And the answer is, they do not gain a darn thing. Currently, 
the FARC has an estimated income of $100 million a month from 
facilitating narcotrafficking, kidnapping and extortion. They 
have a demilitarized zone the size of Indiana where guerrilla-
style, cowardly attacks are planned and launched and where 
attackers can vanish back into oblivion. They have the Pastrana 
government exactly where they want it, hunkered down, absorbing 
repeated attacks with little ability to respond.
    Clearly, the FARC has no incentive to reach peace, and 
Colombia has endured a year's worth of escalated violence just 
to prove it. Absent a peace strategy of its own, the U.S. State 
Department has blindly backed Pastrana's fledgling peace 
efforts. At Pastrana's request, American diplomats negotiated 
with and legitimatized FARC leaders last December. This is the 
same FARC that the State Department placed on its own list of 
world terrorist organizations. It has been a policy of this 
government for years and years and years not to negotiate with 
terrorists, and yet our State Department went down there and 
met with them and, as far as I know, are still negotiating with 
them in one way or another. Despite this, one American diplomat 
continued to contact the FARC leaders even after the murder of 
the three Americans in March.
    The lack of counternarcotic strategy by the Clinton 
administration has never been more evident than in drug czar 
Barry McCaffrey's $1 billion aid package. This is less than 1 
year's income for the FARC guerillas. Think about that, less 
than 1 year's income to the FARC, this money targeted the 
Colombia Army, rampant with allegations of human rights abuses. 
In Colombia in 1997, General McCaffrey said he supported Black 
Hawk helicopters for the Colombian National Police [CNP], known 
as the best counternarcotics police in the world.
    However, days later in Washington, General McCaffrey 
opposed counternarcotic aid to Colombia, the world's top drug-
producing country. He wrote that the Black Hawks ``would 
threaten to undermine the objectives of the United States 
international counterdrug policy.'' Two different opinions, and 
I would like to submit these letters for the record, Mr. 
Chairman.
    Mr. Mica. Without objection. So ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T5738.002
    
    [GRAPHIC] [TIFF OMITTED] T5738.003
    
    Mr. Burton. How could Black Hawk helicopters hurt our 
counterdrug effort?
    He then complained that Chairman Gilman and myself were 
trying to ``micromanage the war on drugs.'' Simply put, there's 
no war on drugs being waged by this administration, unless you 
count the nearly $200 million General McCaffrey spends annually 
for ONDCP television ads and these frisbees, on these frisbees 
and key chains that are up on the easel up there in front.
    This is more than we spend our counternarcotic efforts in 
Colombia, the source of more than 80 percent of the cocaine and 
75 percent of the heroin in the United States. Counternarcotics 
aid to Colombia has been abysmally low until this year, when 
Chairman Gilman and I were successful in getting Black Hawks 
funded for the Colombian National Police, which I want you to 
know has not yet been delivered.
    General McCaffrey should have been developing a heroin 
strategy, but the fact of the matter is there has been no 
heroin strategy from this administration. The Republican 
Congress has been forced to do the administration's job and 
then fight to get the necessary equipment down there.
    Mr. Chairman, I would like to enter several op/ed pieces 
into the record to clearly establish that Congress recognized 
the heroin problems several years ago and has attempted to 
force a reluctant Clinton administration to even address the 
issues.
    Mr. Mica. Without objection, so ordered.
    Mr. Burton. General McCaffrey has just returned from 
Colombia, and surely he will present you with his firsthand 
account of the situation. News reports quote him as proposing a 
$1 billion course of action, which will help save Colombia from 
both the narcotraffickers and the FARC terrorists. $1 billion 
is a lot of money, but as I said before, it's less than the 
estimated $1.2 billion the FARC takes in every single year from 
drugs, kidnapping and extortion.
    General McCaffrey's proposal undoubtedly includes funds to 
stand up a Colombia Army capable of counternarcotics 
operations, which sound good on the surface, but given the 
tainted human rights record of the Colombian Army, even in 
vetted units, it is unlikely aid to them would pass the 
administration's litmus test for the ``spirit of Leahy.'' This, 
of course, is the law named after the Senator from Vermont 
prohibiting lethal assistance without cutting through a 
mountain of bureaucratic red tape.
    This is the favorite first obstacle that the State 
Department usually places in front of any assistance to 
Colombia. The Colombian Army, while understandably a pet 
project for a former CINC SOUTHCOM is in tatters, and even the 
Pentagon estimates it would take a Herculean effort and more 
than 5 years to vet, train and equip a Colombian Army capable 
of handling this mission. Regrettably, Colombia may not have 5 
years of democracy left.
    The good news is there's a group in Colombia who is already 
in place, are well trained, and are willing to do what needs to 
be done to fight our war on drugs. They're the Colombian 
National Police, headed by the legendary General Jose Seranno. 
In a poll in last week's Colombian newspaper, El Tiempo, 
Seranno's popularity, 71 percent, is second only to the 
Catholic Church with 77 percent. Colombians proudly say, after 
my God, my General Seranno. General Seranno's men have a clean 
human rights record and the desire to do the job. All they need 
is the equipment.
    Mr. Chairman, actions speak louder than words. This 
administration has promised Chairman Gilman and myself more 
than 40 new helicopters for the Colombian National Police since 
1996. As of this morning, only 2, only 2 of the 40 are on the 
flight line in Colombia. Why can't the State Department get 
these helicopters to General Seranno?
    Mr. Chairman, out of curiosity, I checked with the Indiana 
Army National Guard. They have 32 Hueys and 7 Black Hawks. 
Today General Seranno has only 23 operating helicopters to 
cover his entire country, where 95 percent of his missions 
require helicopters, and that's the size of Texas and Kansas 
combined.
    Before Congress embraces or considers General McCaffrey's 
$1 billion aid package, shouldn't the administration be forced 
to make good on its commitments to General Seranno and the 
Congress regarding helicopters for the Colombian National 
Police? Congress has many questions, but General Seranno has 
more than 4,000 questions, which represents the lives of the 
men he's lost fighting our war on drugs.
    The State Department's record on delivery of assistance to 
the CNP is abysmal at best. Even if we pass this proposal today 
and work every day for the next year, General McCaffrey knows 
there are no way that that aid could reach Colombia next year 
either due to incompetence or lack of will at the State 
Department. Clearly, this is an effort to say the Clinton 
administration finally did something about drugs before next 
year's election cycle.
    It is coming way too late. This chart shows the string of 
unkept promises by the administration. It could be much longer, 
but we chose only to highlight the helicopter situation.
    Mr. Chairman, I would like to insert a stack of unkept 
State Department promises, including dozens of letters on 
everything from ammunition to weapons to helicopters, into the 
record at this point.
    Mr. Mica. With objection, so ordered.
    Mr. Burton. I will turn my attention to the State 
Department's insatiable desire to mislead Congress on what is 
actually happening in Colombia. The Bureau of International 
Narcotics and Law Enforcement has a history of incompetence and 
inability to deliver counternarcotics assistance, which is its 
job. Every new Assistant Secretary who comes in, Secretary 
Beers included, says they cannot be responsible for the actions 
of the previous Secretary. Secretary Beers, the buck stops 
here. You have told me and my staff on a number of occasions 
that the first tranche of 35 new Huey II helicopters would be 
in Colombia last fall, then you said in March, then April, then 
June, then July. Now it's August. When are they going to get 
there?
    I was told by Ambassador Robert Gelbard in September 1996 
that 10 of these were going to be delivered. That was 3 years 
ago. There was only two on the flight line this morning. There 
have been four Hueys, Huey IIs, ready for shipment from Alabama 
for a number of weeks. Why haven't they been delivered?
    Your department dropped the ball on this, and it is not the 
first time. In June of last year, you sold Mr. Hastert, Mr. 
Callahan and Mr. Souder on trading three Black Hawks for six 
Bell 212's and 10 Huey II helicopters. Chairman Gilman and 
myself reluctantly accepted your compromise because you gave us 
your word.
    Today, I'm told by narcotics affairs section personnel in 
Colombia, four of those six Bell 212's are not flying. 
Secretary Beers, despite your testimony at the International 
Relations Committee in March, they have never had more than 
four in the air at any one time. Chairman Gilman, I am sure, 
remembers it very vividly as well. You told us, ``Congressman, 
I can assure you these will not be hangar queens.'' And as 
Chairman Gilman pointed out, they are.
    I don't know that we have those up there again, but I hope 
before this hearing is over, we will once again be able to look 
at the condition of the helicopters that were in when Secretary 
Beers gave them to the CNP. They spent several million dollars 
to repair these aging helicopters. Further INL got rid of these 
helicopters just before they were scheduled to go down again 
for 6 more months for the mandatory 5-year checkup. So we are 
sending them junk. Will these piles of metal ever be of use to 
General Seranno?
    So it is a facade, it's a facade. General McCaffrey would 
have to rely on this same State Department crowd to get this $1 
billion aid package delivered. By the time this assistance 
would arrive in Colombia, we would be trying to figure out who 
is going to be the last--who is going to be in the last 
helicopter off the roof of the American Embassy in Bogota. 
Because of inaction by this administration, the risks to 
freedom we helped eliminate in the 1980's in Central and South 
America could very well reemerge, and reemerge with a 
vengeance.
    In conclusion, Mr. Chairman, I am glad Colombia is finally 
on the radar screen of this administration. Maybe someone at 
the White House will finally hear our pleas to get General 
Seranno the helicopters and the equipment he needs. I just hope 
the 4,000 CNP officers have not died in vain and that democracy 
will prevail.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you, Mr. Chairman, for your statement.
    [The prepared statement of Hon. Dan Burton and the 
information referred to follow:]
[GRAPHIC] [TIFF OMITTED] T5738.016

[GRAPHIC] [TIFF OMITTED] T5738.017

[GRAPHIC] [TIFF OMITTED] T5738.018

[GRAPHIC] [TIFF OMITTED] T5738.019

[GRAPHIC] [TIFF OMITTED] T5738.004

[GRAPHIC] [TIFF OMITTED] T5738.005

[GRAPHIC] [TIFF OMITTED] T5738.006

[GRAPHIC] [TIFF OMITTED] T5738.007

[GRAPHIC] [TIFF OMITTED] T5738.008

[GRAPHIC] [TIFF OMITTED] T5738.009

[GRAPHIC] [TIFF OMITTED] T5738.010

[GRAPHIC] [TIFF OMITTED] T5738.011

[GRAPHIC] [TIFF OMITTED] T5738.012

[GRAPHIC] [TIFF OMITTED] T5738.013

[GRAPHIC] [TIFF OMITTED] T5738.014

[GRAPHIC] [TIFF OMITTED] T5738.015

[GRAPHIC] [TIFF OMITTED] T5738.020

[GRAPHIC] [TIFF OMITTED] T5738.021

[GRAPHIC] [TIFF OMITTED] T5738.022

[GRAPHIC] [TIFF OMITTED] T5738.023

[GRAPHIC] [TIFF OMITTED] T5738.024

[GRAPHIC] [TIFF OMITTED] T5738.025

[GRAPHIC] [TIFF OMITTED] T5738.026

[GRAPHIC] [TIFF OMITTED] T5738.027

[GRAPHIC] [TIFF OMITTED] T5738.028

[GRAPHIC] [TIFF OMITTED] T5738.029

[GRAPHIC] [TIFF OMITTED] T5738.030

[GRAPHIC] [TIFF OMITTED] T5738.031

[GRAPHIC] [TIFF OMITTED] T5738.032

[GRAPHIC] [TIFF OMITTED] T5738.033

[GRAPHIC] [TIFF OMITTED] T5738.034

[GRAPHIC] [TIFF OMITTED] T5738.035

[GRAPHIC] [TIFF OMITTED] T5738.036

[GRAPHIC] [TIFF OMITTED] T5738.037

[GRAPHIC] [TIFF OMITTED] T5738.038

    Mr. Mica. I would like to recognize Ms. Schakowsky from 
Illinois.
    Ms. Schakowsky. I thank you, Mr. Chairman.
    I appreciate the opportunity to hear the testimony of these 
two esteemed chairmen and my colleagues.
    I want to take a moment to make a statement which actually 
is more in the way of a series of questions. The recent call by 
General Barry McCaffrey to increase spending on drug 
enforcement in Colombia puts the United States at a crossroads. 
Do we invest in a militaristic drug war that escalates the 
regional conflict, or do we attack the drug market by investing 
in prevention and treatment at home and seek to assist in 
stabilizing Colombia?
    According to the GAO, ``Despite 2 years of extensive 
herbicide spraying, U.S. estimates show there has not been any 
net reduction in coca cultivation. Net coca cultivation 
actually increased 50 percent,'' and this 50 percent increase 
in coca cultivation comes after $625 million in 
counternarcotics operations in Colombia between 1990 and 1998.
    Considering the demonstrated failure of militarized 
eradication efforts to date, why should we believe that 
investing even more money in this plan will achieve a different 
result? And what will it take to achieve total victory in 
Colombia? Are we prepared to make that type of investment in 
dollars and in lives? And if not, what is the purpose of this 
aid?
    Considering the fact that more than 100,000 civilians have 
died in Colombia's civil war and five servicemen recently on a 
reconnaissance flight, is it ethical to escalate the war in 
Colombia in order to prevent Americans from purchasing cocaine? 
Will the aid achieve a 10 percent reduction or a 20 percent or 
50 percent reduction in drugs? What is the target amount, or is 
the purpose to degrade the military capability of the FARC or 
bomb them to the negotiating table?
    Exactly what is it that we believe this aid will 
accomplish? Is it the first in a series of blank checks for a 
war that has no foreseeable end game? What is the exit 
strategy? With the continued failure of a military solution to 
drug production in Colombia, why shouldn't an innovative 
alternative development approach be used instead? Why not spend 
half or all of the money on crop substitution or development?
    A landmark study of cocaine markets by the Rand Corp. found 
that providing treatment to cocaine users is 10 times more 
effective than drug interdiction schemes and 23 times more 
cost-effective than eradicating coca at its source.
    If decreasing drug use in America is the ultimate goal, why 
aren't we putting equal resources into domestic demand 
reduction where each dollar spent is 23 times more effective 
than eradication? Today, we're discussing $1 billion for 
Colombia, but yesterday, we cut $1 billion from the COPS 
program here at home.
    A recent study by researchers at SAMHSA, the Substance 
Abuse and Metal Health Service Administration, has indicated 
that 48 percent of the need for drug treatment, not including 
alcohol abuse, is unmet in the United States. Why is it that we 
can find emergency funds for overseas military operations while 
continuing to ignore the enormous lack of drug treatment here 
at home?
    Mr. Chairman, before becoming entangled in a foreign war, 
it seems to me that the Congress should use its oversight 
authority to require the administration to explain how this 
escalation will reduce illicit drug use at home better than 
investment in prevention and treatment in the United States. 
The administration should also explain how increasing funds for 
a policy will change the result when past increases in support 
have not changed the outcome. These troubling strategic issues 
need to be resolved in a satisfactory manner before we increase 
our involvement in Colombia.
    I appreciate the opportunity to make this statement.
    Mr. Mica. I thank the gentlelady for her statement.
    I would like to recognize the gentleman from Arkansas Mr. 
Hutchinson.
    Mr. Hutchinson. Thank you, Mr. Chairman.
    I appreciate this hearing, and I want to express my thanks 
to Mr. Burton and Mr. Gilman for their testimony today and 
their leadership on this issue. After Mr. Burton's testimony, I 
certainly am looking forward to hearing the testimony of the 
State Department in reference to those helicopters.
    And, Mr. Gilman, I couldn't agree with you more in regard 
to the balanced approach that we have to maintain, reducing the 
demand for cocaine in this country, the demand for drugs, while 
also going after the source countries.
    I, as many members of the subcommittee, have been to 
Colombia and met General Seranno and appreciate the work that 
he's doing there, and they do need our assistance. And I 
respect the questions that have just been raised by the 
gentlelady from Illinois, very appropriate questions as to what 
our strategy is. Hopefully, we can answer some of those 
questions today. I thought for a moment she was speaking of our 
intervention in Kosovo, what our plan is for an exit stategy.
    And this region is very, very close. When you look at the 
New Tribes Missionaries that have been captured, perhaps killed 
by the FARC guerillas there, and then you look at the 
servicemen that we've lost, this impacts the lives of 
Americans. And so I think it's appropriate that we address our 
role there and our commitment there. And I'm delighted with 
this hearing.
    While this hearing is primarily designed to highlight the 
precarious situation in which Colombia finds itself, I want to 
take a moment, Mr. Chairman, to honor an Arkansan who was on 
the front lines of our war against drugs in that country. Chief 
Warrant Officer Thomas Moore, a fellow Arkansan, has paid the 
ultimate price for the defense of his country. In a little 
noticed incident last month, Moore and four of his compatriots 
lost their lives to keep our kids safe from the scourge of 
drugs.
    On July 23rd, Moore and his fellow air crew took off for a 
routine intelligent mission over southern Colombia. The crew 
was tasked with gathering information to support Colombia's 
counterdrug efforts. The craft disappeared from radar screens 
while over rebel-controlled territory and later was discovered 
in the mountains along Colombia's border with Ecuador. There 
were no survivors.
    Moore joined the Army in 1988 after attending the Air Force 
Academy. In 1991, he served with distinction in Southwest Asia 
during Desert Shield and Desert Storm. After 4 years of 
enlisted service, Moore was selected for the warrant officer 
program. He graduated from flight school in 1993 as a scout 
helicopter pilot, and in 1996 was selected to attend a fixed 
wing qualification course. He graduated and joined the 204th 
Military Intelligence Battalion, and as a result of his 
excellent performance was selected to fly the RC7, the Army's 
premier reconnaissance plane. Moore had deployed several times 
on missions to South America from his post at Fort Bliss, in El 
Paso, TX.
    His awards include the Kuwait and Saudi Arabia Liberation 
Medals, the Army Achievement Medal and the Army Commendation 
Medal.
    Moore is from Higden, AR; and is survived by his wife and 
two children.
    Mr. Chairman, this happened 1 month ago. And I do not 
believe it has captured the attention, the recognition that is 
deserved for these brave soldiers who have really committed 
themselves to serving our country.
    Mr. Chairman, I want to thank you for this opportunity to 
pay tribute to Chief Warrant Officer Thomas Moore and his 
fellow soldiers. They embodied the spirit that undergirds our 
determined efforts to fight narcotraffickers wherever they seek 
to ply their poisonous trade. They are indeed unsung heroes.
    I yield back, Mr. Chairman.
    Mr. Mica. I thank the gentleman for his statement.
    [The prepared statement of Hon. Asa Hutchinson follows:]
    [GRAPHIC] [TIFF OMITTED] T5738.039
    
    Mr. Mica. I am pleased now to recognize Mr. Reyes, who has 
joined us. He's a member of the Armed Services Committee. We 
thank you for joining us this morning, and you're recognized, 
sir.
    Mr. Reyes. Thank you, Mr. Chairman. I appreciate the 
opportunity to participate as part of your committee. I want to 
tell you that I hold both chairmen in the highest esteem. I 
know they worked very hard on this and many other issues, 
including annually on the issue of certification of Mexico, 
which I think is one of the most important things that we do in 
this Congress is recognize the efforts that other countries are 
making on behalf of fighting drug traffickers and international 
drug smuggling.
    It occurs to me that in the context of what we're doing 
this morning and what your committee does, it's very important 
that we have a clear understanding of what the challenges and 
what the accuracy is. I came to Congress after 26\1/2\ years 
service in the U.S. Border Patrol, part of the Immigration and 
Naturalization Service, and I will tell you that Border Patrol 
agents as part of Operation Snowcap have been at the forefront 
of this Nation's war on drugs since the early 1980's.
    I had the opportunity to travel to Colombia and observe the 
activities of the Colombian National Police, as well as the 
participation by DEA and by the United States Border Patrol as 
a result of Operation Snowcap, so I have a good understanding 
of the issue. I have a good perspective based again on 
experience of what is going and what has been going on in 
Colombia for literally several decades. I have experience under 
the Reagan administration, under the Bush administration, and 
obviously under this administration, and it occurs to me that 
we in Congress do a lot of political jousting, and part of what 
I think is important is that we be accurate about framing the 
argument and not allow politics to interfere with what is very 
dangerous work for our men and women fighting both in this 
country and internationally to stop narcotics trafficking.
    I would tell you that the loss of five soldiers. I 
represent the 16th District of Texas, which includes Fort 
Bliss, and the loss of five soldiers occurred not a month ago, 
but literally less than 2 weeks ago. They included Captain 
Jennifer J. Odom, Captain Jose Santiago, Warrant Officer Thomas 
Moore, as my colleague from Arkansas has already mentioned, 
Specialist Bruce Cluff and Specialist Ray Kreuger.
    I would also remind this committee that of all of the five 
soldiers, we have actually only recovered the remains of three, 
two are still on that mountaintop in Colombia. And I mention 
that because it's important that we keep in mind why we're 
here. It's important that we understand that in order to 
overcome and to be successful in fighting narcotics trafficking 
and the scourge of narcotics in our neighborhoods, and we go 
through this every year when the issue of certification comes 
up.
    I heard mention this morning where the administration was 
being criticized because they decertified Colombia on two 
separate occasions. Members here this morning want to see 
Mexico decertified. So it brings to my mind that there's an 
issue here of either confusion or hypocrisy at play, and it's 
not helpful to the efforts and the sacrifices that are being 
made not only by the five soldiers who already have lost their 
lives, but by the efforts of the U.S. Border Patrol as they 
participated in this endeavor in past years, by DEA today, by 
members of the military even as we speak here this morning.
    Part of the challenge is, as I see it, is to work together. 
And, again, I get back to accuracy. I asked you what kind of 
infrared system was on that video, because from my experience, 
that looked more like daylight video than infrared. You cannot 
see smoke from a helicopter after it's been shot and flames 
coming out in the way that that came out in terms of infrared.
    So, again, I make mention of these things so that we can 
work jointly, both as Democrats and Republicans, both as 
liberals and conservatives, both as those that have an 
understanding of the issue not only locally in our 
neighborhoods, but internationally in scope, as I do, and bring 
forward people that understand in order for us to succeed in 
fighting international drug trafficking, in order for us to 
succeed in being able to come up with a solution, we have to 
approach this thing from the proverbial three-legged stool, and 
that's with education, with treatment, and with interdiction, 
law enforcement, however you want to phrase it.
    All three are important; all three are critical. And it 
doesn't do us any good to sit here and nitpick when there are 
the lives of our men and women both in the military and in law 
enforcement at risk both in this country and internationally.
    I hope that, and I am willing to lend my expertise, Mr. 
Chairman, in any way that I can and that if you see fit, to 
help us frame the larger issues, to help us frame the challenge 
that we face so that together we can reach a successful 
conclusion to the scourge that frustrates all of us in our 
neighborhoods and all of us in our capacity as representatives 
of the people of this country.
    And I thank you for the opportunity.
    Mr. Mica. I thank the gentleman for joining us.
    Now, last but not least, the gentleman who has been very 
active on our subcommittee on this issue, Mr. Souder, the 
gentleman from Indiana. You're recognized.
    Mr. Souder. Thank you, Mr. Chairman. And I also want to, 
before I make a statement here, pay tribute to Chairman Gilman 
for his leadership in the Narcotics Select Committee, as well 
as International Relations Committee; to Chairman Burton not 
only for his work in Government Reform, but also in 
International Relations in Central America, because it's the 
committed efforts of both of you, in addition to your work on 
this subcommittee, but particularly with your leadership at the 
full committee chairman level and being able to keep the focus 
on, or we would really be in bad shape, probably be gone by now 
in the sense of what's been happening not only in Colombia, but 
Peru and Bolivia and Central America.
    It was very disturbing to me to hear somehow that we 
haven't somehow totally wiped out the drug problem is grounds 
that we should back up. General McCaffrey frequently compares 
the drug battle to cancer. We spent billions in fighting cancer 
in America, but we haven't stopped cancer. So should we cut all 
of our funding out and give up on fighting breast cancer and 
other forms of cancer in America? It's an absurd argument that 
we heard just a little while ago.
    If you want to try and focus on the treatment problem, then 
focus in addition to the other things on the treatment problem. 
Congressman Ramstad has an access bill that I'm a cosponsor of, 
and we need to move access for drug treatment.
    Nobody here today is against drug treatment. We have the 
safe and drug-free schools bill moving through the committee 
and many other things that will be in the Labor-HHS bill, and 
we're moving those this Congress. We heard, oh, we're spending 
far more on the domestic side than in targets.
    But my former boss, former Senator Dan Coats, used to have 
a story that he liked. I would like to paraphrase here, and 
that is that people--it would be similar to coming up to a 
river where the babies are drowning, and then you're busy 
pulling these babies out like crazy trying to save their lives, 
and somebody says, I wonder how the baby is getting in here. I 
wonder what is happening upriver. Well, Colombia is the source 
of the river. It's coming from Colombia.
    We're sitting here how we're going to help our communities, 
how we're going to get the drowning babies out. We ought to 
look at the source, too, because if we do not get to the 
source, we cannot handle it in Fort Wayne, we cannot do enough 
in our schools, we cannot do enough in our streets, we cannot 
build enough prisons, because it is both a supply and a demand 
problem.
    One other thing that really has disturbed me, and I was 
interested if Chairman Gilman has any comments on this, too, 
because you said you had been in Congress 27 years, and that 
means at the start you were there as we were coming out of 
Vietnam. And one thing we seem to be fighting here is this 
Vietnam phobia that we have in this country of everything is 
like Vietnam, is it like Vietnam, and there are several clear 
things here that are not like Vietnam, in my opinion.
    One, it's in our hemisphere; Colombia is 2 hours from 
Miami. This is not something that's overseas or far away. 
Second, it's not Vietnam in the sense that drugs that are 
coming in from Colombia are coming in to my hometown, into my 
district and into every other area of America, threatening the 
lives of all of us in this country. It's not a hypothetical 
battle which I feel it is important to fight around the world. 
But it is also one that's of direct, clear compelling national 
interest in the United States.
    It's also not Vietnam in the sense that the CNP, as we 
heard from both of your testimony, wants to fight. They are 
trained to fight. We just aren't giving them the materials with 
which to fight. And in the military, certainly General Wilhelm 
on the ground working now, they're trying to clean up what has 
been a weakened military, but they want to do it, and they want 
to be helped. That is not like Vietnam.
    But my concern about how it is like Vietnam is that we will 
give them just enough to never quite win, to never quite 
succeed, and possibly fail. But we will never give them enough 
early enough to get the jump on those that are fighting.
    That's the parallel to the Vietnam is that we don't have 
the courage to get in at the front, and then, in effect--then 
say, oh, well, they can't win. And I would like to hear in 
particular Chairman Gilman's comment, because you've seen now 
both ends of this, and it is one of the stories that we're 
clearly fighting in the media, is this turning into a Vietnam, 
and, oh, we need to back up. And we heard it here just a little 
bit ago.
    Mr. Gilman. Well, if I might, Mr. Chairman, just a brief 
response, let me note that between 1985 and 1992 with a 
balanced drug-fighting strategy on both supply and demand at 
the same time, along with Mrs. Reagan's excellent public 
relations campaign of ``just say no,'' we were able to reduce 
monthly cocaine use by nearly 80 percent, which is a 
demonstration of the fact that by applying an effective 
strategy, we can make progress.
    And this is not the time to retreat. We have, as you so 
forcefully mentioned, an effective drug-fighting force in 
Colombia that has the will and the wherewithal that they lack--
they lack the wherewithal, the ability to do the job. All 
they're asking for is some support from our Nation, so let's 
give them the support that they need.
    And General Seranno, who is an outstanding drug fighter, 
has said that with proper equipment, he could eliminate the 
opium supply for the heroin within a 2-year period. All we say 
is, the administration people, our DEA and our State Department 
working together can be very helpful to him in providing 
resources he needs, and he would eliminate that source.
    We must not take from one to give to the other. We have to 
fight these on several fronts at one time of both reducing 
demand and reducing supply. And I thank you for your supportive 
remarks.
    Mr. Souder. Thanks. And Mr. Chairman, this is a war in 
Colombia we cannot, nor the world cannot afford to lose. 
Whatever it takes, it must be one that cannot be a narcotic 
state.
    Mr. Mica. I thank the gentleman.
    I think we've concluded all of the opening statements--oh, 
I'm sorry. I beg your pardon. I apologize deeply, Mr. Ose, the 
gentleman from California, I didn't see you at the end. You're 
recognized.
    Mr. Ose. I'm a Stealth helicopter down here. Mr. Chairman, 
I don't have an opening statement.
    Mr. Mica. You're very kind, because we have taken quite 
some time to hear from these Members.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Mica. I would like to excuse our witnesses who are also 
members of the panel, ask them to join us if they would.
    And now if we could call our second panelist. The second 
panel and only witness on this panel is General Barry R. 
McCaffrey. Mr. McCaffrey is the Director of the Office of 
National Drug Control Policy. He has testified before us 
before, and he is back with us.
    General, you know, I think, the protocol. If you would 
stand, sir, and raise your right hand. [Witness sworn.]
    Mr. Mica. Thank you.
    General, we're not going to run the light on you this 
morning. You're the only witness on this panel, and I know many 
are anxious to hear from you. So we welcome you back. We salute 
you for your efforts. You are recognized, sir.

   STATEMENT OF GENERAL BARRY McCAFFREY, DIRECTOR, OFFICE OF 
                  NATIONAL DRUG CONTROL POLICY

    General McCaffrey. Well, Mr. Chairman, let me thank you, 
you and your colleagues for the chance to come down here and 
testify. I was able to listen to the opening panels and all of 
your opening comments, and I really must applaud you and the 
other members of the committee for drawing the attention of the 
country to what I would characterize as an emergency situation.
    And I think it's going to require a very careful analysis 
by the administration and the Congress in the coming months to 
sort out exactly how do we take on these enormous dilemmas that 
President Pastrana and his colleagues face in confronting a 
problem of gigantic dimensions that is worsening over time.
    And specifically I would say there are three elements of 
that problem. The one that very directly affects my own 
portfolio, of course, is drugs in which we have seen a doubling 
of coca production in the last 3 years. And so poor Colombia, 
these 36 million very brave people have now become the No. 1 
country on the face of the Earth in terms of undercultivation 
for cocaine, and indeed in a very short period of time have now 
become, as has been previously commented on, some 6 metric tons 
of heroin drug dimension that is simply astonishing.
    And I might add it's not just affecting United States 
citizens, this is affecting Colombians, and the drug abuse 
problem in that country is skyrocketing, and it's spilling over 
into their neighbors.
    Now a second problem that Colombia faces, however, needs to 
be taken into account, is a huge economic crisis. It's also 
clearly linked to the lack of security, which in most ways is 
fundamentally driven by this explosion of drug production. 
We're seeing astonishing 20 percent unemployment rate and 45 
percent devaluation of the peso and massive economic flight of 
investor capital.
    Who in his right mind would invest in Colombia at this 
moment? And indeed, not just in terms of foreign capital, but 
domestic also, how can you try and do cattle ranching if you're 
fearful of leaving the confines of the major cities?
    Then finally, as has been accurately pointed out by some of 
your earlier witnesses, President Pastrana--and I think this is 
the will of the Colombia people--is trying to bring to an end 
40 plus years of the most mindless violence imaginable, and 
it's a dynamic process, you know. The FARC and the ELN and the 
other guerilla groups may have originally had an ideology, and 
it's not clear to most of us that they have become anything 
more than terrorist organizations which are fueled by hundreds 
of millions of dollars of drug-created money.
    Now, I heard 1.2 billion mentioned by Chairman Burton. 
That's the highest number I've heard; the minimal numbers, 215 
million a year. Clearly, it's resources on a level that have 
allowed them to have double the number of automatic weapons and 
a FARC battalion as the Colombia Army and to pay their 
narcoguerilla fighters in some cases up to $1,000 a month, 
while the Colombian Army is paying their kids $200 a month.
    The peace process is an important one not just to Colombia, 
but to all of us. It's a regional problem, and it's going to 
require a very multifaceted approach, clearly one aspect of 
which may well be enhanced support for the security forces at 
Colombia.
    Mr. Chairman, with your permission, I have tried to pull 
together in writing in the statement our own views, not just of 
ONDCP, but obviously those of the Attorney General, Secretary 
of the Treasury, Defense, and State. And I offer that for the 
record. And then I put together some charts that I will run 
through very quickly that I would like, with your permission, 
to offer for the record.
    Mr. Mica. For the record they will all be made a part of 
the record. Thank you.
    General McCaffrey. If I may make some very quick comments. 
And I might add that my colleague over here that will be 
pulling the slides for me is an intern working with me, Air 
Force Second Lieutenant Chris Rainy, on loan for the summer 
from the School of Public Policy. There will be a little bit of 
flair that may be lacking in my normal presentation.
    Please, if you will, first view graph--let me just say that 
the President did dispatch me on a trip last week that took me 
to Colombia, No. 1, Ecuador, and Venezuela; Ecuador to look at 
the FOL at Manta Ecuador, to talk to their congressional 
leadership, their government officials and the President; into 
Venezuela to talk to President Chavez, his Defense Minister, 
Interior Foreign Ministry; and then finally in Oranjestad 
Aruba, to look at the forward-operating locations in those two 
places.
    I'm very upbeat, to be honest, about the value of our trip, 
and would be glad to respond to your own questions.
    At the end of this coming month, the President will send me 
back to Brazil, Bolivia and Peru and Argentina. The whole 
notion would be to pull together regional ideas about 
continuing to successfully confront the drug issue, and to do 
so not just on the basis of intelligence cooperation and 
judicial cooperation and air and sea interdiction, which are 
vitally important, but to see it in a larger context of what we 
think are the major contributions that we started in the 
Santiago Summit of the Americas. How do we make sure that 34 
nations are engaged in this process, and this is not seen as a 
United States problem that we're cajoling our Latin American 
partners into participating in? That's where the trip took me, 
and I will be glad to respond to your own questions.
    Chris, the next chart if you will, sir. Why don't you put 
them all up there so we can run through this a bit quicker.
    Source zone strategy. Six years ago we put together PDD 14. 
I think it was a sound piece of work. I thought so at the time. 
It suggested you got to do it all; you've got to have a solid 
domestic law enforcement and interdiction strategy. Yes, you do 
have to go into the transit zone, the Caribbean, the Eastern 
Pacific, Central America. We can talk about that. But at the 
end of the day, the huge payoffs in terms of supply reduction 
are going where the drugs are produced, and we're doing that 
worldwide.
    But certainly when it comes to cocaine and heroin in the 
Latin American arena, our eradication concept in Colombia, 
Peru, Bolivia and Mexico are vital to achieving some goal. And 
I would just suggest to you, almost to my astonishment it's 
working, more so than I could have envisioned in the 5-some odd 
years that I've been working the issue. With a rather--in terms 
of the entire national budget, with a rather modest financial 
investment, we actually every--achieved a net reduction in 
cocaine in 3 years. And I will go on to talk about that and why 
it might be jeopardized in the coming years.
    When I say we, this is not just the DEA, the Customs 
Service, the Border Patrol, U.S. Armed Forces, the Agency; a 
lot of it is the Peruvian Air Force, Colombian National Police, 
the cooperation of authorities in the Caribbean. It's really 
been a multinational effort, and it's pretty impressive.
    Next chart, Chris.
    Let me talk about Peru, because that's clearly the most 
dramatic successes we've made. Three years, 56 percent 
reduction in coca under cultivation. It's astonishing, 
unbelievable what has been achieved. Now, a lot of that was not 
just the incredible performance of the U.S. Air Force and 
intelligence services supporting the Peruvian Air Force, it was 
alternative economic development, it was smart political 
operation by President Fujimori. It was a defeated Sendero 
Luminosos. It was a reintroduction of civilian police in the 
Huallega Valley. It was good eradication operations in the 
Eberamag valley, but inarguably, that's where they've gone in 3 
years.
    And for that reason, for the first time in a decade there 
have been less cocaine floating around the world on a net basis 
then there were in previous years. That's jeopardized. We're 
now seeing possibly some bad evidence of the reintroduction of 
coca planting into the eradicated fields.
    A lot of reasons why that may or may not be occurring, one 
of which is the--as you get production down, the value of the 
product goes up. More likely the important reason is these drug 
criminal organizations are so flexible, they're adapting to 
what we did and are now moving on the rivers, and they're 
smuggling out in the eastern Pacific by noncommercial shipping. 
They're getting around what we've achieved. They're out in 
Brazilian air space. They're making short aircraft hops across 
the Colombian border. They're moving east into Bolivia instead 
of north into Colombia. So there's a dynamic process by some 
very clever and dangerous criminal organizations. But Peru 
ought to be proud of what it's done.
    Next chart. Bolivia. Unusual, I watched this, as have many 
of you, for a decade. For 7 years we put $1 billion in there. 
We achieved enormous increases in legal cultivation. We helped 
the police and the Army, but we had a zero impact on coca 
production. In the last 2 years, President Banzer, Vice 
President Quiroga, this administration has actually reduced 
coca production 22 percent, and they've done it, thank God, 
with a human rights equation taken into account, where there 
has not been massive conflict, armed conflict between the coca-
ers and the police and the Army.
    Now they ought to be proud of what they've done, but 
they're also now getting into the heavy lifting, and how well 
they can proceed will be a challenging concept to them. They've 
gone out, they asked the Europeans and their global partner for 
help. But this is another nation that's been on the right 
track, and one element of it was stiff law enforcement and 
eradication, very impressive work.
    Colombia. A traditional ally, they fought with us in Korea. 
They are enormously important economic partners, whether it's 
coffee or flowers or whatever. Literally 30,000 jobs in 
Florida, as you well know, Mr. Chairman, depend upon trade with 
Colombia. An honest President, a good government struggling 
with these huge challenges.
    But when you back off of it and look at the global drug 
threat that they pose, it's a huge problem. And I might add, 
Mr. Chairman, I would volunteer later on to review the 
transcript of this hearing. I'll pull together the other actors 
in the government who watch this issue; let me try and get you 
a fact sheet. Congressman Reyes I think quite correctly 
suggested we have got to get on the same set of facts.
    I think there's been an awful lot of good sound bites that 
are well-meaning, but I need to paint the picture as I think it 
actually is. I say that, because I think Colombia is a dynamic 
situation, what we've done in the past may not be adequate.
    We do need to think through the coming several years. It's 
going to require a coordinated effort under the leadership of 
Secretary Albright. I went to her when I got back to lay out my 
own thinking. She is dispatching Under Secretary Pickering, one 
of the most distinguished diplomats I've ever worked with. He 
will go down there on Monday and try and work the issue.
    So it's a changing situation, and I welcome, I think all of 
us welcome, the oversight of Congress and the participation of 
Congress, but we've got to get the same sheet of facts.
    The peace process, the drug issue, the economic problem, 
they are linked. The peace process is faltering. It's not 
achieving its purpose. There's been no gesture of goodwill on 
the part of FARC guerillas. It's outrageous. They have gone 
into this, quote, demilitarized zone, cleared zone with 
thousands of FARC fighters. There's 41 airfields in there. 
There is some indication there is now coca production in there.
    It is a laboratory operation. They are using it as an armed 
base area, and during the July offensive they came out of that 
DMZ and attacked the police and the Army as far as 75 
kilometers away. They executed 30-some-odd people in the DMZ. 
They are entering homes in the DMZ; 90,000 Colombians live in 
there, and they're violating Colombian constitutional law by 
exercising jurisdiction in the absence of Colombian law. It's a 
huge problem. And I might add when they attacked the police and 
the Army, it was a tremendous signal of determination on the 
part not just of General Seranno, but all the Colombian armed 
forces. Nobody surrendered. None of these besieged outposts 
gave up. Many of the Colombian soldiers that were killed were 
executed while wounded. They were shot in the head.
    So this is a huge problem, and yet in saying that, I do not 
imply that we should do anything but be entirely supportive of 
continuing to engage on a negotiated--support Pastrana and his 
colleagues on a negotiated end of the FARC, ELM and 
paramilitary struggle against the government, but that's a 
problem in sum right there, and it's spilling over, as I will 
show in a subsequent chart.
    Next. A lot of us should be proud about what we've done in 
the last 3 and 4 years in the Andean Ridge. I'm not sure what 
is coming up in the next 3 or 4 years. It looks to me like the 
dynamic is shifting, and we're now moving in a different 
direction. The Peruvian cocaine industry is coming back. It's 
just beginning, and January, when we get our yearlong analysis 
of the data, I will be able to give you a better overview. But 
I think it's going in the wrong direction, and I will try and 
learn more about that toward the end of the month.
    Bolivia. Indeed we have done a magnificent piece of work, 
``we'' meaning primarily the Bolivian police and human rights 
activists and alternate economic development programs. But 
again, I think the organizations, criminal organizations, have 
now reneged themselves. The Colombians are gone. The Colombians 
criminals are out of Bolivia, but Bolivian cocaine production 
is still going out of country through Argentina, through 
Brazil, to Europe. A lot of it is in Europe. It's not going up 
now into Colombia to be turned into HCL. The laboratories are 
in Bolivia. So it's a different problem and a very serious one, 
and arguably some tough years are coming up.
    And then finally we talked about Colombia, it doesn't need 
to be repeated.
    It's not the source of 80 percent of the cocaine. The facts 
are that it's a No. 1 cultivation source of coca. And we're 
seeing an improvement, I might add, in the quality of these 
coca bushes; the HCL contents going up. It is arguably either 
80 percent of the cocaine in America originated in or transited 
through Colombia is a better way to look at it.
    I would also argue that there's six metric tons of heroin, 
high purity, low cost, now being--as Congressman Cummings 
accurately pointed out, being dealt, distributed by the same 
criminal organizations that are there to distribute cocaine, 
which makes it even worse. That heroin is a new dynamic. It's 
killing kids from Florida all the way to New York City and 
Boston. They're sticking it up their nose, thinking because 
they don't inject it, it's less dangerous probably. Although 
the extremely good law enforcement work, particularly in Miami 
and New York City, the seizures are up to 70 percent on the 
East Coast.
    I would argue that does not necessarily mean that's the 
primary source of heroin. Poor Colombia produces 4 percent of 
the world's heroin. The majority of it is still produced in two 
places, Burma and Afghanistan. And one could argue in those two 
countries the only thing that works is opium production. And 
that stuff is still coming in--Burmese heroin is all over the 
United States.
    Next. One could argue Colombia is a trafficking center of 
gravity. There's no question about it, a lot of the 
laboratories are involved there. The precursor chemicals come 
into Colombia from--through Venezuela, through Ecuador, 
directly into Colombia. The money laundering, a lot of it is 
either orchestrated or takes place in Colombian systems. 
Clearly the FARC and the ELN and the paramilitary, we've had 
this long sterile debate over whether to call them 
narcoguerillas. I don't know what we ought to call them, but 
without question, the FARC income depends upon drug production.
    They're taxing it at every stage, they call it a tax, the 
growing of it, the transportation, the laboratories, and so 
when the Coast Guard and the DEA seize 6 pounds of Colombian 
cocaine, the FARC already got paid, and that's why you see them 
in shiny uniforms and brand new automatic weapons, and with 
aircraft and helicopters and international legal talent. It's 
the center of gravity, we could argue, for gigantic and 
menacing criminal enterprise.
    Next chart. Their neighbors are worried. They ought to be 
worried. Colombia is incapable of controlling the land area, 
particularly in the south, Caqueta and Putumayo provinces. When 
I flew in the combat base at Tres Esquinas, right in the heart 
of Indian country, and you look out the window, 30 percent of 
the land area is coca production, and their FARC base area is 
now operating, particularly in Ecuador, but also across the 
border into Peru, into Brazil, Brazilian frontier, and in and 
out of Venezuela land space. And then finally they're clear 
across the border into Panama and the Darien Peninsula.
    I mentioned that not just to indicate the regional nature 
of the threat, but to underscore the requirement for regional 
cooperation in solving it, which is one of the reasons that I 
had gone to the surrounding countries and listened to their own 
views.
    Mr. Chairman, final quick comment, we've got a first-rate 
CINC in Southern Command General Charlie Wilhelm. The Congress 
gave us some money to set up United States Southern Command in 
Miami, the crossroads of Latin America. We've got a problem. 
We've closed down operations in Panama. As you pointed out, 
some 2,000 counterdrug flights a year which took place out of 
Howard Air Force Base, the capability is gone as of May 1st. It 
was an $80 million-a-year operation. There were 2,000 airmen 
there, so that 24 hours a day, 7 days a week, we were 
supporting the U.S. Customs Service, which has indeed probably 
the preponderance of counterdrug missions, the U.S. Armed 
Forces, DEA aircraft, the Agency, Department of Transportation, 
the Coast Guard tracker aircraft program. Now we're trying to 
come up with new alternatives.
    We're behind the ball on it. We kept negotiating with 
Panama. We thought we had a solution that was good for the 
region. We got interim access to Manta, Ecuador, Curacao and 
Aruba. I believe we're going to be able to put together a 
first-rate longer-term agreement. There's great receptivity in 
the region, I think, to continue these cooperative fights.
    And I've got to underscore, you know, I was out there with 
Congressman Reyes at 2 a.m., with the Secretary of the Army, 
the Chief of Staff of the Army, the old guard, the soldiers of 
that 204th MI Battalion, to welcome home the first two remains 
from those five brave young U.S. Army aviators. And the 
President asked Janet Reno to head the U.S. Delegation that 
went back to bring in Captain Jennifer Odom, a beautiful young 
public servant, operational aircraft lost, supporting regional 
counterdrug mission, and, in my view, directly protecting the 
safety of the American people. It was a great honor, I know, 
for Congressman Reyes and I, among others, to have taken part 
of in that mission.
    With your permission, I will end my formal remarks there, 
and I look forward to responding to your own questions and 
listening to your own ideas. Thanks, Mr. Chairman.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of General McCaffrey follows:]
    [GRAPHIC] [TIFF OMITTED] T5738.040
    
    [GRAPHIC] [TIFF OMITTED] T5738.041
    
    [GRAPHIC] [TIFF OMITTED] T5738.042
    
    [GRAPHIC] [TIFF OMITTED] T5738.043
    
    [GRAPHIC] [TIFF OMITTED] T5738.044
    
    [GRAPHIC] [TIFF OMITTED] T5738.045
    
    [GRAPHIC] [TIFF OMITTED] T5738.046
    
    [GRAPHIC] [TIFF OMITTED] T5738.047
    
    [GRAPHIC] [TIFF OMITTED] T5738.048
    
    [GRAPHIC] [TIFF OMITTED] T5738.049
    
    [GRAPHIC] [TIFF OMITTED] T5738.050
    
    [GRAPHIC] [TIFF OMITTED] T5738.051
    
    [GRAPHIC] [TIFF OMITTED] T5738.052
    
    [GRAPHIC] [TIFF OMITTED] T5738.053
    
    Mr. Mica. I will start with just a couple of questions, if 
I may. You've been quoted as saying the line between 
counternarcotics and counterinsurgency in Colombia no longer 
exists. I notice that last week President Pastrana played that 
down a bit. Do you believe that's the situation, and your 
having been there, is there any reason that President Pastrana 
would make those comments?
    General McCaffrey. Well, President Pastrana is a good man, 
and he's accountable to history for achieving peace in 
Colombia. And to be blunt, I'm accountable to the American 
people to protect them in the drug menace. I believe the only 
way to do that is in cooperation with our regional partners. So 
it's just a matter of perspective.
    There is no factual argument that without 25,000 or so 
FARC, ELN and paramilitary guerillas, this gigantic explosion 
in drug production in Colombia could not exist. And the 
Colombian police are not capable with 4,500 members at Danta in 
interdicting and interceding in these coca-producing regions. 
They've got to have the Colombian armed forces stand them with 
them.
    I think it is a difference in perspectives and possibly 
semantics, but he's got to deal with these people.
    Mr. Mica. But there's no division in your mind between 
counternarcotics and counterinsurgence?
    General McCaffrey. Well, I don't think I would go that far. 
I think there is a distinction, but they're all related issues. 
The spiralling economy, the peace process, and the guerilla 
violence and the drug issue are all fueled by hundreds of 
millions of dollars from coca production and opium.
    Mr. Mica. One of the problems that we've had is getting 
equipment to Colombia. The Congress last year appropriated $280 
million, and you've heard testimony today about helicopters on 
tarmacs, equipment not getting there. I met with the Vice 
President of Colombia, I believe it was last week, when he was 
in Washington, and we still seem incapable of getting that 
equipment to that area.
    Could you tell us of the $280 million that we appropriated 
what's there?
    General McCaffrey. Let me--I think that's one of the areas 
that bothered me, you know, obviously, since Secretary Randy 
Beers and Brian Sheridan and others who are here to testify can 
with great, you know, knowledge of the issue talk to you about 
it, and I would be glad to give you a report.
    Mr. Mica. Would you give us an estimate?
    General McCaffrey. Let me, if I can----
    Mr. Mica. Our staff has reviewed it, and they find only a 
few millions of dollars in equipment out of the $280. The press 
continues to report that Colombia is now the third largest 
recipient of aid.
    General McCaffrey. Yeah.
    Mr. Mica. Actually that is only in the money that's 
appropriated this year, and very few of those dollars our 
investigation indicates that have actually gotten there.
    General McCaffrey. Mr. Chairman, if I can, rather than go 
to which four helicopters on which day, let me go to how I've 
watched it over the last 5 years. We--for example, in a 
statement made there's no Black Hawks there, it's just simply 
not the case. There's 7 Black Hawks there in the Army, and 
there's 13 there in the Air Force. There's six more going in 
for the police. There will be there in October and March, you 
know--this best aircraft on the face of the Earth is the Black 
Hawk. It's being modified to reach Seranno's specifications.
    There are, if you will, Mr. Chairman, there are six Bell 
212 helicopters have been provided to CNP. Only two are 
currently operating. One was damaged in a hard landing; one 
destroyed in an accident. Of the remaining four, two are in 
maintenance. There are an additional eight going in darn quick, 
four more in August, four more in October.
    Mr. Mica. The Hueys are with the military? Blackhawks?
    General McCaffrey. There are seven with the Army. There are 
13 with the Air Force. There are six more going into the 
police. There is an Army 7th group training session. The 
counter-narcotics battalion at Tormita actually is being 
equipped and trained and U.S. trainers are there. I think it's 
inaccurate to get the impression that there isn't--Colombia is 
the third largest recipient of foreign aid on the face of the 
Earth. There are a lot of people down there trying to make that 
happen.
    Mr. Mica. But again, only $7 million in this recent 
appropriations that we did in a supplemental was last year. The 
equipment is actually there. We have been trying to get, I quot 
Mr. Hannah from 1997, the Hueys to the Colombian National 
Police. Mr. Reyes pointed out about the decertification. We 
could have decertified with a waiver which we recommended, 
which would have allowed us to get that equipment there. So 
what we have is we have appropriated money but the actual 
resources have not gotten to those who are--and the dispute in 
the Congress or among folks here has been not providing the 
military equipment to the military. It has been the military 
have it. The police who are conducting the bulk of the 
antinarcotics effort don't have it.
    General McCaffrey. I don't think that's accurate. When I 
went to Colombia 6 months ago, I got aboard Army Blackhawks and 
flew out to the combat base in Guaviare with NAS-supported 
helicopters moving Colombian police. I think there is a big 
problem, potted radars being produced, Blackhawks being 
produced and modified. Maybe it was inadequately done, but 
there is a lot of stuff there. There is trainers on the ground.
    Mr. Mica. General, we are just trying to get that equipment 
to where it can effectively do the job, to solicit your 
assistance. Finally, one question on the forward operating 
locations. Our surveillance, which has closed down, there were 
15,000 flights and 2,000 personnel. All of that stopped in 
Panama.
    General McCaffrey. 2,000 flights.
    Mr. Mica. No, we have 15,000 flights.
    General McCaffrey. I don't know where you got that.
    Mr. Mica. That is the information we were given.
    General McCaffrey. I ran the programs. 15,000 flights is 
ludicrous. I don't know where that number came from, whatever 
the number is.
    Mr. Mica. We won't debate that. Again, we are using the 
figures given to us by the Southern Command and others. In any 
event, what percentage of flights are now being conducted? We 
sent staff there about a month ago and staff found about one 
third of the flights were being conducted that were previously 
conducted. You could give us Manta and also Curacao.
    General McCaffrey. That's where you have to be careful what 
sound bites you use. If you take all of the flights flown in 
the region during the month of June--listen to me, this is 
factually accurate--it is 122 percent of the flights flown 
during the same period a year earlier. What is deceptive about 
that is most of those flights are flown in the transit zone, 
Caribbean. We can support the Caribbean just as effectively out 
of McDill Air Force base as we could out of Panama. The problem 
is the source zone region. That's been a huge decrease. But 
even then we got into Manta and we got into Curacao and Aruba 
and were flying from all three locations.
    Mr. Mica. What percentage of flights?
    General McCaffrey. Well, the source zone I think has gone 
way down. Part of that was tied up in Kosovo. We lost a lot of 
these Intel aircraft, AWACs were all redeployed to fight the 
air war in Kosovo. But I think we have a challenge. We have got 
to get infrastructure support from Manta, Curacao, and Aruba. 
We have got to get cooperation from regional authorities, or we 
will have a problem supporting the source zone. You are quite 
correct.
    Mr. Mica. Thank you, General. Just as I conclude, let me 
submit for the record the helicopter that was shot down in the 
video was shot down at 18:38 to 18:40. It was right at dusk. It 
was with an infrared camera, so that's the exact time on that. 
Mr. Reyes has also asked about a balanced approach. I would 
like to submit for the record these charts which show Federal 
spending on international, which is source country, which was 
decimated, cut about 50 percent we see during the beginning of 
this administration. Only now, and if you look here, are we 
getting back to the equivalent of 1991 to 1992 dollars.
    Federal spending for interdiction was cut. Interdiction 
decreased 51 percent, international funding levels fell 56 
percent from 1992 to 1995, and for the record to look at the 
balance from 1991 to 1999, we have more than doubled, 
approximately doubled, the treatment money.
    I just wanted to submit those for the record so that we 
can, and possibly there would be some dispute about these, but 
we were given these statistics from GAO reports, create a 
balanced approach and look at what our strategy would be.
    I would like to yield now to the chairman of the full 
committee.
    Mr. Burton. Mr. Chairman, would you like to go ahead and 
recognize one of the Democrats first and then I will be----
    Mr. Gilman. Mr. Chairman, since I have to go into another 
briefing, I would welcome it if you would give me the 
opportunity to ask some brief questions.
    Mr. Cummings. I have absolutely no problem with that.
    Mr. Mica. Then we will go right back to you.
    Mr. Cummings. Yes, and I want to thank Mr. Burton for your 
courtesy.
    Mr. Gilman. I thank the gentleman. I thank the gentleman 
for yielding. General McCaffrey, we want to commend you for 
saying what Colombia needs now is $1 billion regional proposal. 
But where is the White House on this? I haven't seen any 
budgetary requests for that. I haven't seen any spelling out of 
the details nor the implementation of your proposal. We would 
welcome hearing about that.
    General McCaffrey. Mr. Chairman, if I can correct you, I 
don't have a $1 billion proposal for Colombia. What I have got 
is a discussion paper that I put out about 3 weeks ago to all 
14 of the President's Cabinet officers. It's a $1 billion 
package for regional drug issues. It goes to Peru, Bolivia, 
Colombian, the Caribbean, et cetera. It's not just military 
police aid; it is also alternative economic development, 
support for judicial training, and infrastructure. That 
discussion paper I think needs to be addressed. I was 
privileged to brief the Cabinet very succinctly on our 
concerns. I have seen the Secretary of State, so I think we are 
going to have to look at this very dynamic situation in the 
coming months. We have got a challenge on the budget. No 
question.
    Mr. Gilman. General McCaffrey, when will we get beyond the 
discussion stage and just the proposal stage? If we are going 
to really help, when are we going to provide the kind of 
funding that is needed and the resources that are needed?
    General McCaffrey. Mr. Chairman, let me, if I may, 
challenge all of us, because I really welcome your involvement 
in this thing. We sent over an INL budget. The Senate cut it by 
27 percent. The House just cut the INL budget by 10 percent. We 
have got earmarking of money in the House for three A-10 tank 
killing aircraft as crop spraying planes. We haven't--you 
haven't funded, the administration hasn't funded----
    Mr. Gilman. If I might interrupt you, what--the House and 
Senate have complied even with more funding and resources than 
the administration requested. According to ONDCP 1999 budget, 
$48 million was budgeted for Colombia in fiscal year 1998; yet 
the administration only requested $30 million in fiscal year 
1999. That represents a 37 percent decrease in the request in 
just 1 year. Why has there been such a significant decrease 
request? In addition to the $30 million for Colombia in fiscal 
year 1999, Congress passed an emergency supplemental 
appropriations bill which brought the total allocations for 
Colombia last year to about $256 million according to ONDCP 
figures. Yet your fiscal year 2000 budget request for Colombia 
was only $40 million this year.
    Now, you are talking about a $1 billion emergency counter-
drug including 600 million for Colombia. So you have now gone 
from $40 million request to over $600 million in just 6 months. 
Why all of these discrepancies? Don't point the finger to the 
Congress. We are asking the administration, why aren't you 
coming forward to meet the crisis with the proper funding?
    General McCaffrey. Well, Mr. Gilman, here is the answer. 
Fiscal year 2000 request for international programs were $637 
million. That is a 4 percent increase over last year's 
requested amount. I do think it's an appropriate question to 
ask, why did the House and the Senate both cut the INL budget 
we sent over here. I don't understand how we can be doing one 
thing and talking another. I do believe that we need a new look 
at the region. If you will allow me to answer your question, 
Mr. Chairman.
    Mr. Gilman. The House just passed $285 million for INL 
antinarcotics efforts.
    General McCaffrey. Mr. Chairman, you get to ask the 
question, but you have got to allow me to respond to them.
    Mr. Gilman. Your figures are wrong. We have accommodated 
the White House request for the antidrug funding for INL. We 
passed it.
    General McCaffrey. Actually, Mr. Chairman, the figures are 
quite correct. I think you are taking a bite out of them, which 
I believe deserves a respectful response. But in fact there is 
a 4 percent increase in INL budgets in fiscal year 2000, which 
has not been acted on by the U.S. Congress. Now, I am also 
going to propose a new look at the whole region. I will get an 
answer out of the Government when they sort it out, these 
conflicting peace process, economic challenge, and drug 
problems. We do require a new look at it. That's why I welcome 
your involvement. But I do believe that you ought to give us 
the money that was in the INL budget. That's really what I am 
trying to put on the budget.
    Mr. Gilman. General McCaffrey, if we have such a crisis 
confronting us, why isn't the administration asking for 
additional funds to meet this crisis instead of just a paper 
talking about some regional approach?
    Let me move to address another area. With regard to Panama 
and regard to Howard Air Force Base, we were engaged with the 
foreign affairs directorate in Panama before we closed the 
base. They were anxious to keep us there. Then they got caught 
up in politics. Now we understand that the new President of 
Panama is willing to discuss further negotiations in keeping 
Howard Air Force Base instead of advertising Howard Air Force 
Base for sale to a private developer.
    Now we are hearing just recently that there is an 
ammunition shortage in Colombia primarily because Howard Air 
Force Base has been closed that used to supply the ammo. Right 
now they have a critical ammo problem. What I am asking truly 
is what can we do to reopen Howard Air Force Base by 
negotiations with an administration in Panama that is 
interested in doing that?
    General McCaffrey. I certainly share your dismay that those 
negotiations didn't come out positively. We clearly were 
suiting the needs of the region. It was better for U.S. 
national interests. It was better for Panama, and I think it is 
a great disappointment. We negotiated in good faith. We had a 
first-rate performance, in my view, by Ambassador McNamara and 
the United States Ambassador to Panama. It's a shame that's 
what happened. In the short run, I think we are out of Panama. 
It's a closed question.
    The new administration down there, when he gets in office, 
perhaps then we ought to let them think through what they want 
to achieve. But I think our CinC has got a decent way of 
dealing with the problem. If we can get into Manta, Ecuador, 
with an FOL and also into Curacao and Aruba and locate a third 
FOL that can watch the eastern Pacific, and Panama is not the 
only option, we will be able to satisfy our regional counter-
air requirements. I think President Balladares turned off the 
process. Until he is out of office and this new administration 
can look at it, I don't believe that it's fruitful to pursue 
that.
    Mr. Gilman. Thank you, Mr. Chairman. Thank you, General.
    Mr. Mica. I would like to recognize now Mr. Cummings from 
Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman. First of 
all, let me say this, General McCaffrey. As you know, I really 
appreciate what you are doing. It seems like it all depends on 
what day you appear here. Some days we think that you are the 
greatest thing since ice cream, and other days it's like a slam 
dunk against you. But the fact is that I do believe--and I know 
that you know this--that on this day when the Congress is 
basically out of session, for a total of 10 or 12 Members to 
remain here to deal with this issue, it means that all of us 
are very concerned about this, as I know you share our views 
and our feelings and our passion about trying to rid our 
country of, if not our world of, this drug problem.
    In that light, you sent a letter--first of all, let's go 
back to these helicopters. We spent a phenomenal amount of time 
on these helicopters. It sounded as if--I know that we have got 
some people from State, but I want to first of all figure out 
what role you play in all of this. You have a strategy for 
Colombia, is that right, pretty much?
    General McCaffrey. I think the Colombians have a strategy 
for Colombia. We are trying to figure out how to support it 
effectively.
    Mr. Cummings. These helicopters, do you see them as a very 
important part of the strategy there in Colombia?
    General McCaffrey. I think there is no question. Mobility 
for the police and the Army is probably one of the greatest 
tools we could give them in the short run.
    Mr. Cummings. One of the things that you said, you were 
talking about General Serrano. You said something that kind of 
caught my ear. You said something about one of the problems was 
trying to get helicopters to meet certain specifications of 
General Serrano. I know that we may have testimony later on 
about this, but can you elaborate a little bit on that?
    General McCaffrey. It's been a very complex issue. For 
example, I probably ought to clear up that I owe Mr. Burton a 
response to his very legitimate concern about why would I 
apparently be supporting the Blackhawks but writing a letter to 
not support the Blackhawks. At one point 1\1/2\ years ago, 
Congress said let's give six Blackhawks to the Colombian 
police, but the money was going to come out of the existing INL 
budget, which to me was a disaster. It would have immediately 
stopped two-thirds of our support to Bolivia. So I opposed that 
course of action. And, oh, by the way, the Colombians hadn't 
budgeted for those Blackhawk flying hours. So they would have 
stood down in my view the majority of their Huey helicopters. 
So I said that's no good and I wouldn't support it.
    Congress last year in the supplemental provided enough 
money to pay for the training, the OPTEMPO, et cetera, at which 
point I said OK it's a contribution. I also would tell you, I 
think our support for mobility so far has been marginal. This 
is sort of on the edge. There are 240,000 police-army, 25,000 
for KLN and paramilitary guerillas, six helicopters. This is 
not significant.
    Mr. Cummings. But you don't have a problem with us getting 
these helicopters? You are not pulling my time on me, are you, 
Mr. Chairman?
    General McCaffrey. No, I think we absolutely support it. We 
absolutely support it.
    Mr. Cummings. I thought my chairman wanted to stop me. I 
just want him to know that I didn't have my 5 minutes.
    General McCaffrey. Your light is OK, Mr. Congressman. I 
don't know about----
    Mr. Cummings. Let me just finish here. You sent a letter on 
July 13 to Secretary Albright. You talk about the fact that we 
had a--that the aid to Colombia was, ``inadequate to deal with 
the enormous internal threats.''
    There seems to be some question as to what that was all 
about and how did you come to this revelation. Can you address 
that for us? Then you had specific requests, and we want to 
know what her response was.
    General McCaffrey. Well, I think it's premature, to be 
blunt. That was me laying down a marker suggesting--I know, for 
example, there is an idea floating around in Congress of $940 
million of support for Colombia. I tried to pull together some 
good thinking as a discussion paper, not only to the Secretary 
of State but others involved in this and said let's relook at a 
dynamic situation that is going in the wrong direction. I think 
that's exactly what is taking place. The administration will 
look through the threat as it has evolved and try to sort out 
what to do and we will consult with Congress. But we don't have 
an idea on the table, OMB approved, yet to come down here and 
present to you.
    Mr. Cummings. Thank you.
    Mr. Mica. Thank you. I would like to recognize the chairman 
of the full committee, Mr. Burton.
    Mr. Burton. General McCaffrey, according to news accounts 
in Colombia 1997, you said you supported Blackhawk helicopters 
for the Colombian National Police, as you have stated here 
today. Days later in Washington, DC, you opposed counter-
narcotics aid to Colombia and you wrote that Blackhawks would 
threaten to undermine the objectives of the United States 
international counter-drug policy.
    Why did you have those two conflicting positions in just 
such a short period of time?
    General McCaffrey. Mr. Burton, I just answered that 
question. You were involved in the discussion. Let me repeat it 
if I may.
    Mr. Burton. I appreciate that.
    General McCaffrey. I just answered the question 2 minutes 
ago. Let me again lay it out.
    I do support mobility for the police and the Army. That's 
unquestioned. What happened was we had a proposal where we 
would pay for six helicopters for the Colombian police out of 
the existing INL budget, which would have reduced the Bolivian 
counter-drug aid by two-thirds that year. That was a disaster 
for the U.S. Government, so I opposed it and I provided a 
letter to that effect.
    Now, later when we got the supplemental out of Congress, 
which I think basically is a pretty good piece of work, it was 
done too hurriedly. It wasn't thought through adequately, but 
it was a pretty good piece of work. Congress provided the money 
for the Blackhawks, the training, the spare parts, and the 
OPTEMPO.
    If we had taken those six Blackhawks and put them there, 
minus funding from the Colombian Government--I might add they 
did not budget for the operation of those aircraft--we would 
have stood down every NAS Huey helicopter. We can't have, in my 
view, congressional staffs micro-managing the Colombian police 
and air force. They are not qualified to do it. We ought to 
make the Colombians think through it. Let other CinC work with 
the people who are doing that and present some coherent plan, 
which is what we owe you.
    Mr. Burton. General McCaffrey, it isn't our staff. I talked 
to General Serrano personally, and I looked him in the eye much 
closer than we are. He said, why are we being promised these 
helicopters and why aren't they being delivered? You promised 
40 helicopters. They are not down there.
    And you said, well, we have got to be real careful because 
we are going to hurt Bolivia if we take that money away. The 
fact of the matter is we now have a situation that is virtually 
out of control and you are saying, OK, we have got to do 
something about that. In 1997 and 1998, nothing was done. In 
Congress, you said that Chairman Gilman and I were micro-
managing, trying to micro-manage it.
    The fact is we were talking to General Serrano on a 
frequent basis. Our staffs were going down there on a frequent 
basis to see what was being done and nothing was being done. We 
have got junk helicopters down there. We have got 4,000 
Colombian National Police being killed. They are now 
negotiating from a position of weakness with the FARC guerillas 
because we haven't done anything. Now, all of a sudden with 
bravado, you are coming up here saying, oh, yeah, we are really 
going to sock it to them and we are going to do something.
    Why didn't we do it before?
    General McCaffrey. Well, I would suggest that we--I 
couldn't agree with you more. We need to relook the Colombian 
problem. I think that you are right. I look forward to hearing 
your own ideas. An enormous amount has been done. We have the 
third largest recipient of U.S. aid on the face of the Earth. 
There is a huge embassy and military effort going on to 
support, where appropriate, training, equipment, intelligence 
cooperation. But I welcome your own ideas, Mr. Chairman, and we 
will try to support your thinking.
    Mr. Burton. We will try to work with you. Let me just say 
that I want to set the record straight on a few issues. The 
reason we earmark funds for INL is because there are 40 
helicopters that have not been delivered. INL has been fully 
funded and we are the reason for it here in the House. We are 
the reason that the Senate added that $70 million to INL's 
budget. Earmarking was necessary to make sure that those 
helicopters got down there because we didn't----
    General McCaffrey. This is the fiscal year 2000 budget, Mr. 
Chairman? Because that's just not the case.
    Mr. Burton. Fiscal year 1998.
    General McCaffrey. Fiscal year 2000 is the budget that I am 
talking about. The one on the Hill, the House did not fund it 
and neither did the Senate.
    Mr. Burton. Let me give you the facts as I see them: one, 
last year after administration cuts in source country programs 
totaling more than $1 billion in 1993, 1994, 1995, and 1996, 
Congress acted decisively. Two, last year Denny Hastert, the 
Speaker of the House, led a congressional effort to put $690 
million into source country programs as the first year of a 3-
year effort to fund the Western Hemisphere Drug Elimination 
Act. Of that amount--that's law. But note, very little of that 
aid is yet in Colombia, that $690 million.
    No. 2, this year despite all of our efforts, despite the 
U.S. Congress putting forward the crucial 3-year western 
Hemisphere act, despite clear signals that we will support aid 
to Colombia, the President asked for zero money for this year's 
tranche of the western hemisphere Western Elimination Act. We 
wanted to fund it. We gave $690 million for it. This year in 
the President's request, zippo.
    Thank you, Mr. Chairman.
    Mr. Mica. I thank the chairman of the full committee. I am 
now pleased to recognize Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. Welcome, General 
McCaffrey. I appreciate your tendering and trying to handle 
some of the questions because, frankly, there are a lot of 
issues that from my perspective are up in the air. I would look 
forward and encourage you to come up with some specific facts 
that we can all look at so that we can sort things out.
    I think ultimately the ones that pay the price are those 
five soldiers that you and I participated in those ceremonies. 
Part of what I think is frustrating, at least for me, is the 
fact that we do what I call political jousting in some of these 
issues. When we talk about not fully funding the INL money; 
when we talk about the Senate still not confirming the State 
Department official in charge of North American relations; when 
we talk about the kinds of things that we are dealing with as 
we try to address drug trafficking on an international level, 
and also on a domestic level, part of the frustration that I 
think we all share regardless of political perspective has to 
be a clear understanding of what our strategy is.
    I think that--again predicated on my background and 
alluding to the comments of my colleague on the other side of 
the aisle on this committee where he was trying to 
differentiate how this is different from Vietnam, I would 
submit that we are engaged--I spent 13 months in Vietnam and I 
know that you are also a veteran of Vietnam. Part of the 
frustration that I see us participating in and fermenting is 
the fact that we are doing the same kinds of things that 
occurred in Vietnam, that is, we are interjecting politics when 
we should be supporting an all-out effort that ultimately will 
make a difference in keeping narcotics from our neighborhoods 
and addressing the issue of how much is coming across the 
border and from where. Having spent 26\1/2\ years doing that, 
of my life doing that, I think it's critical and vital that we 
work together.
    I have a couple of questions for you, General. One of them 
has to do with more the domestic; yet it's related to the 
international. What is the status on your proposal for the 
border czar? I think if we are going to be able to have a clear 
understanding of our strategy, we have to start with the 
strategy that calls for coordination. When we are talking about 
our southern border, where the challenge is, as far as I am 
concerned and based on my experience, we have to be paying 
attention to coordination. We have to provide the kind of 
support to our various agencies and our various assets that are 
involved in this to be able to maximize and give them the best 
kind of support, both political and otherwise. Can you tell me, 
what is the status of your proposal?
    General McCaffrey. Mr. Congressman, I think there is some 
interim good news. There are 15,000 Federal agents involved in 
the defense of the southwest border, a $2 billion operation. 
Thanks to bipartisan support in Congress, we have dramatically 
increased the resources; the manpower of the Border Patrol; the 
amount of technology going into the Customs Service. The 
coordination with Mexico, while imperfect, has improved.
    The Customs and INL have come up with a notion called BCI, 
Better Coordinated Action, at these 39 ports of entry. I think 
arguably our intelligence flow to support Federal law 
enforcement on the border is better. Our HIDTA, High Intensity 
Drug Trafficking Area Program, on the five southwest border 
HIDTAs is, I think, more effective than it was 2 years ago. At 
the same time, I must admit that I think we need a renewed 
discussion inside the administration so that there is a better 
integration of the four major departments of the Federal 
Government who work on border issues.
    I have argued for a southwest border coordinating official 
possibly to be collocated at El Paso, with EPIC, joint task 
force six, and Alliance. I think there is a strong logic to 
persuade my colleagues of that and we need to continue that 
debate.
    Mr. Reyes. Thank you, General. Very quickly, can you 
address the issue of the School of the Americas? We fight this 
battle every year. It seems to me that the mission of the 
School of the Americas is critical and vital to the context of 
the conversation that we are having here this morning in this 
hearing.
    General McCaffrey. I wrote some letters over here to 
support the School of the Americas along with two of the people 
whose judgment I most trust in Government, Mr. Tom Pickering 
and Mr. Walt Slocum in State and DOD along with the secretary 
of the Army and others. The School of the Americas is an 
enormous contribution, in my judgment, to allowing, in a 
Spanish-language environment, military and police officials 
from throughout the 34 democratic nations to come together and 
train on a common U.S. Army doctrine basis.
    I think that it's made a tremendous gift of 
professionalizing and making more responsive to democracy the 
rule of law of the military forces. It's been going on 
essentially since the early 1950's. There were problems with 
some of the graduates during the ideological wars of the 1970's 
in Central America and South America. I think it's a great gift 
to the hemisphere.
    I also, to be honest, find that the criticism is not only 
10 years out of date, it's insulting to the current leadership, 
uniformed leadership of the U.S. Army. That school at Fort 
Benning is under the same inspector general rule of law, 
congressional oversight that any other U.S. Army installation 
has to respond to. I think the American people properly have a 
lot of confidence in the Army's leadership.
    I think that we have got an old argument dragging us back 
to the 1970's when we need to look at the future. And the 
School of the Americas as well as the Air Force school in El 
Paso--have I got it right? El Paso or San Antonio, excuse me, 
and the Navy's efforts are all tremendous contributions to the 
drug mission, also.
    Mr. Reyes. Thank you, Mr. Chairman.
    Mr. Mica. Thank you. I will recognize our vice chairman, 
the gentleman from Georgia, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman. General, you mentioned 
briefly in your opening remarks about the policies that Peru 
has implemented which resulted in a very, very marked decrease 
in the drugs coming out of that country. Could you just very 
briefly tell us what is the current status of the Peruvian 
shoot-down policy.
    General McCaffrey. They actually--I ought to be careful and 
not use classified information in public. The numbers are 
relevant. The Peruvians still have a shoot-down policy. Their 
air force is still committed. We are still providing the 
intelligence. Basically, it is sort of still working if you 
look at it from a narrow perspective of air interdiction in the 
growing fields. The problems is that drug criminals changed 
their systems so now they are moving short air hops, they are 
using the river systems, and there is some argument that we are 
seeing new coca planting occurring in the formerly eradicated 
areas. They are also moving out into Brazilian airspace, and 
they are also using ground smuggling out of Peru and into 
Bolivia.
    Mr. Barr. I understand that. I just wanted to understand, 
does the Peruvian Government still have the shoot-down policy?
    General McCaffrey. Absolutely.
    Mr. Barr. By the way, I appreciate your comments on the 
School of the Americas. I think there was a very unfortunate 
amount of misinformation that was used in the floor debate, and 
I hope that you will help us to try to correct that mistake 
that was made by the House.
    With regard to the way that we characterize the situation 
down in Colombia, and as I mentioned earlier, I am glad to see 
the State Department is recognizing there is a narcoterrorist 
threat or a narcoguerilla threat, that there is indeed a very, 
very profound and deep relationship between narcotics 
trafficking and the destabilizing terrorist and guerrilla 
activity. I was somewhat surprised, though, in a recent story 
to see the Colombian President denying the FARC or 
narcoguerillas. How would you account for that? Does the 
President there just not get it? Does this reflect fear on his 
part, some sort of policy decision? Clearly, they are 
narcoguerillas or narcoterrorists. Why would the President of 
Colombia be hesitant to recognize that?
    General McCaffrey. I think first of all, Mr. Pastrana is 
trying to keep peace. And so he has got to deal with these 
people. He is trying to set up a dialog. I am very respectful 
of the problems he faces----
    Mr. Barr. I presume it is not the way that you would go 
about negotiating, giving away all of your chips up front?
    General McCaffrey. I would prefer to not argue about their 
name and to say that there is no argument that there is $200 
million or more going from coca production into the FARC. That 
is where the machine guns, the mortars, the legal talent, the 
corruption, the violence affecting Colombian society and our 
own is flowing from.
    Mr. Barr. I don't want to get into an argument now. I don't 
think that fundamentally you and I disagree on this. It is not 
just a question of semantics. It's a recognition of what the 
problem is.
    General McCaffrey. I meant his semantics.
    Mr. Barr. If we have people that say, OK, we have a 
narcotics problem and let's deal with that; OK, we have a 
guerrilla problem, let's deal with that, we are not recognizing 
that there is a problem here and that the sum of its parts is 
much worse than the individual parts themselves.
    The proposal that you circulated in the administration last 
month on the 13th, the discussion paper, recommending $1 
billion in emergency counter-drug budget enhancements, do 
others in the administration and specifically--because I agree 
with you, and I want to be very supportive of that--but do 
others in the administration, including specifically if you 
could address this, the President, Secretary of State, 
Secretary of Defense, DCI, and the national security advisor, 
do they share your view that the situation in Colombia is an 
emergency, and will they be supportive of requesting emergency 
funds to address it?
    General McCaffrey. I think there is no question that there 
is a broad-gauged feeling on all my partners that there is an 
emergency situation.
    Mr. Barr. I really want to be very specific. Do those named 
individuals, the President, Secretary of State, Secretary of 
Defense, DCI, and national security advisor, not generically or 
as a group, do they share--because I know you have talked with 
them about this.
    General McCaffrey. They do share a feeling we have an 
emergency situation in Colombia and it requires a broad-gauge 
response which may require additional resources. Now, we have 
got to sort that out and end up with a sensible plan to send to 
Congress.
    Mr. Barr. As you sit here today, would you tell us whether 
you are optimistic or pessimistic that your views will prevail?
    General McCaffrey. Well, I am optimistic that----
    Mr. Barr. I hope they do, but----
    General McCaffrey [continuing]. That the Secretary of 
State, the Secretary of Defense, the Attorney General, 
Secretary Slater and others, all of whom have a piece of this, 
are seriously looking at the issue. We put a tremendous amount 
of resources in there already. But the dynamics have changed. 
Now, we have got to sort out what do we do to support the peace 
process, the economy, and the drug effort.
    Mr. Barr. Do you think that you will prevail in getting 
them to agree, not just that there is an emergency down there, 
but they will request and support your request for emergency 
funds?
    General McCaffrey. First of all, there is no request on the 
table yet. I am trying to pull together a conceptual agreement 
among the administration. That includes I might add, I have got 
to go consult with the leadership in Brazil, Bolivia, and Peru. 
This is a regional problem, not just a Colombian problem. 
That's the other thing that we have to remind ourselves. At the 
end of the day, I hope that we will continue to evolve a policy 
that meets the requirements. And it is an emergency 
requirement, there is no question.
    Mr. Barr. Thank you. Thank you, Mr. Chairman.
    Mr. Mica. Thank you. I am pleased to recognize now the 
gentleman from Indiana, Mr. Souder.
    Mr. Souder. Venezuela is our No. 1 supplier of oil to 
America, far more than anywhere in the Middle East. A lot of 
people don't realize that. Much of its border with the 
Colombian Government now doesn't, in fact, control. Colombia is 
the second, I think, in oil by-products to our country. You 
mentioned earlier in your testimony the problems with, 
particularly, in the Panama Canal and the FARC and the 
narcotraffickers have moved into the Darian potentially with 
Panama not really having the resources with which to defend 
itself. We already have the financial people moving into 
Panama.
    I heard you testify on different committees on the drug 
problems in our high schools and our cities. There is no 
question that drugs are a huge killer in America. Do you 
believe that the crisis we are currently facing, with possibly 
a destabilization of Colombia or at least a dividing of the 
country where many of the borders could not be controlled, is 
as great a threat to our country as Kosovo?
    General McCaffrey. I pretty much admired your earlier 
comment about why this isn't Vietnam. I think this argument by 
analogy gets us into trouble. Let me take Kosovo off the table. 
I did that 5 years ago. Let me, if I can, just get to the part 
of your concern in Colombia. I showed a chart that essentially 
suggests, I think accurately, that if you are looking for the 
serpent of the whole problem, it's Colombia and it is affecting 
their international partners. And they are also concerned.
    So before we are done with this, it seems to me there will 
be a coming together of these democratic regimes to include us 
as one of them with the support, I hope, of the European Union, 
because we are absolutely going to work other partners to help 
with this process. The Brits have been extremely supportive. 
The Dutch have been supportive. The French. We have got to get 
concerned about it because it is going to have an impact on 
many of the rest of us.
    Mr. Souder. I agree that analogies are dangerous. But if we 
were simultaneously right now funding Vietnam versus Colombia, 
we actually have to make some very tough budget decisions. We 
are looking at putting a minimum of $4 billion to $8 billion 
into the Balkans. I wanted to make an earlier comment which I 
understand is disputed. Mr. Beers and I have argued this 
before. But there is a disagreement in the INL. When I first 
offered an amendment to move Blackhawks to the CNP many years 
ago as to whether that money was coming from Bolivia and Peru 
or whether it was coming because, against the will arguably of 
INL and of the drug czar's office, resources were transferred 
to Bosnia at that time.
    There were multiple waves in the accounting, whether it was 
a direct transfer or an indirect transfer. I in no way, nor did 
other people, think we were taking it in Bolivia and Peru. Now, 
we can dispute how the money gets moved around, but in fact it 
isn't as simple as it looks just on the surface. Furthermore, I 
believe that history in fact does matter, not only because you 
don't want to repeat it, but because I know Mr. Reyes and 
others have expressed concerns about our politics. We are an 
oversight committee. We have to look through and say, well, we 
have done this. If this didn't happen, how could we not have 
that repeat again? That's what an oversight and reform 
committee does.
    I hope in the record of this hearing we can go through and 
get some of the actual numbers because we have got numbers 
passing across each other here. I do want to clarify a couple 
of historical points which really are only minor, relative to 
the problem we are facing now in Colombia but important in 
trying to sort through how to get there. My understanding of 
the 7 Blackhawks with the Army and the 13 with the Air Force is 
those were not bought with our money. Those were bought by 
Colombians----
    General McCaffrey. True.
    Mr. Souder [continuing]. And the reason that they were 
bought by Colombians was because the Leahy rule says, in my 
opinion correctly, for a long period of time that the Colombian 
military was not screening their people enough; therefore, we 
could not provide aid to the Colombian military. The only way 
that we could provide aid was to the Colombian National Police 
because they had been vetted. Southcom and General Wilhelm and 
you and others have worked very hard to try to improve the 
Colombian military. They are trying to get the vetted units, 
but the only way that we could get additional Blackhawks with 
American funding into the developing crisis was to try to do it 
through the CNP, not that the Dante were sufficient to win a 
war. We understand that, but that was our only vehicle with 
which to do so. We are now, to add one other thing which I hope 
we will get into in these budget questions, the House passed 
the INL in general. We have increased it. We have had problems 
in the Senate. We have the work together----
    General McCaffrey. Minus $10 million.
    Mr. Souder [continuing]. And then the sub-questions. The 
second point is that, as we all know but very few people want 
to admit, we are in the process of a very delicate dance about 
the budget caps. We are in the early stages of the budget 
agreement, not at the end stages. We know that we are facing 
omnibus or some sort of combination of omnibus and emergency 
supplemental. That's why you are hearing a lot of the questions 
here today. Will the administration come to the table with an 
emergency proposal that you are floating? You put everything in 
your office behind that because we are going to need additional 
money. The question is, is it going to go to INL or this kind 
of effort? Is this crisis going to be as forefront as the farm 
crisis, as the Y2K, as the many other things? That is partly, 
do the American people understand what we are facing here? And 
arguing over $10 million when your budget initially was $40 
million I think and we came a little under that--not $40 
million for Colombia, but the INL was--now you are saying maybe 
$600 million just for Colombia. Hey, conditions have changed. 
You said conditions have changed. So what are we going to do to 
push this up? History does matter some, but at this point how 
do we get to the next level?
    General McCaffrey. Well, you can be assured, Mr. 
Congressman, I agree with your point. I will argue forcefully 
for a balanced coherent approach to this changing problem in 
the region. Mr. Pickering goes down there on Monday. I believe 
there is an enormous focus on the part of all of us that 
Colombia is going in the wrong direction and it's affecting our 
regional partners. I might add that we are concerned about Peru 
and Bolivia and Panama and many of the Caribbean Islands. So we 
will close on the issue. I will be prepared to discuss 
rationally our options inside the Government, and I will 
respond to the Congress in the fall.
    Mr. Souder. Thank you.
    Mr. Mica. I thank the gentleman from Indiana, and I 
recognize Mr. Ose from California.
    Mr. Ose. Thank you, Mr. Chairman. General, a couple of 
questions if I might. If I understand, within the budget that 
you have, you are able to move money back and forth between 
accounts?
    General McCaffrey. I apologize. I missed that.
    Mr. Ose. If I understand correctly within the budget that 
you have, you are able administratively to move money between 
accounts?
    General McCaffrey. There is a legal authority for me to 
move a percent or so with the concurrence from the smaller of 
two budgets with the total concurrence of the committee in 
Congress from which the original budget came. So it's a tenuous 
authority that exists, and it has never been exercised.
    Mr. Ose. One of the things that I find most troubling about 
this entire situation is that--and you are far more familiar 
with the numbers than I am and I suspect that if we get into an 
argument on the numbers I am going to look pretty foolish and 
you are going to look pretty smart. I am willing to go through 
that if I have to, but at some point I am reminded of that old 
ditty that mine is not to question why, mine is but to do or 
die.
    I have to say, after 7 months up here, I don't care about 
the next election. I don't care whether I win or lose. I just 
want something to happen. We are tired of reading about the 
kids in the streets of America dying from this poison. I know 
that you are too. We moved a half million people and I don't 
know how much war materiel, to Saudi Arabia in 6 months' time, 
and we can't get 10 stinking helicopters to Colombia in 3 
years? That's the level of my frustration. I am reminded of 
General McClelland when he worked for President Lincoln. He had 
all of the rationales for why he couldn't get out in the field 
and beat Robert E. Lee. Give me some guidance here.
    General McCaffrey. Well, I certainly agree with you on one 
thing, Mr. Congressman, we shouldn't argue about facts. Logic 
101 in college, don't argue about facts. They either are or 
they aren't. We ought to argue about the implication of the 
facts. I think that I owe the chairman of the committee some 
layouts so that we can have a debate where we all agree on, 
here are the numbers, and get down to micro-detail on which two 
helicopters.
    Make Mr. Beers and Sheridan answer those questions. I think 
there is no question of this at all. Four years ago, the 
counter-drug budget was $13.5 billion. This year the request on 
the Hill is $17.8 billion. That includes a 21 percent increase 
in support for the INL process in that same period of time; 36 
percent increase in research; 52 percent increase in prevention 
education; 26 percent increase in treatment. There are real 
people, real programs, real adds, and, oh, by the way, there is 
a real decrease in drug abuse among American adolescents.
    So you ought to be frustrated, but don't you forget that 
Congress has provided some serious sensible increases to 
support this program. I am very well aware of it and supportive 
of it. When it comes to helicopters and trainers and equipment 
for the Colombian armed forces and police, we have had 
problems. There are real increases in their capabilities over 
the last 4 years. No question. I go down there and I get on 
Blackhawk helicopters and I visit the counter-narcotics 
battalion in Tolamia and the 7th special forces group is there, 
and we are doing the right thing.
    Now, I think we do, back to your point, we need a new 
debate on it because coca protection has doubled. They are 
attacking the police and the army in the outskirts of Bogota. 
And the peace process is not working.
    Mr. Ose. I don't care about the peace process in Colombia. 
I just don't care. I don't care. I just want to know when are 
we going to, as you have suggested, take a material hard look 
at whether we are succeeding or failing on our--on our 
standards? Just giving General Serrano a couple of helicopters 
that can get to the elevations that he needs to go to seems 
like an infinitesimally simple thing. I don't understand why we 
can't do it.
    General McCaffrey. I think the answer is, we are doing it. 
That's the answer. There actually are six Blackhawk helicopters 
that will show up in Colombia. There actually are NAS-supported 
Hueys. There actually is a brand new intelligence coordination 
center that I was just in. There actually are huge resources 
flowing into Colombia and they are making a difference. Now, we 
need to revisit, is this adequate not only for Colombia, but 
for the region?
    Mr. Ose. If it's not, the dilemma that we are going to be 
faced is with the FARC growing ever larger, and threatening the 
neighbors and a peace process in shambles or whatever. The 
democratic institutions in these countries will be collapsing. 
We are going to have a real hard choice. I would rather get 
those helicopters there now. If it's the helicopters, if it's 
the physical presence in the air of helicopters spraying coca 
plants that sends the message or establishes the fact that the 
FARC is not going to rule here, I just think that we ought to 
send--I have read General Frank's book.
    I know you're experienced in the Second Corps. I know if 
there is anybody who can do this, you are the man. I don't 
understand why we can't get 10 stinking helicopters to 
Colombia. I am completely frustrated. We have kids dying in my 
district. I'm sorry, Mr. Chairman, I yield back.
    Mr. Mica. I thank the gentleman. I would like to recognize 
as we conclude for a couple of minutes Mr. Cummings is serving 
as our ranking member.
    Mr. Cummings. General, a few weeks ago one of my proudest 
moments in sitting on this subcommittee, and on this committee, 
came when we held a hearing with regard to a murderer from--I 
think it was Florida, Deltoro. This guy had eluded extradition 
to the United States. And they had been trying to get him 
extradited from Mexico for something like 18 months, 2 years. 
And in one hearing, in a bipartisan way, this subcommittee got 
it done within about 2 weeks.
    I think what you are hearing from Congressman Ose and 
really Congressman Souder and all of us is that, first of all, 
we acknowledge that you have probably the most difficult job in 
this country. I don't think that anybody here would question 
that. I think you are doing a great job. I think quietly others 
might say the same thing. But at the same time when Mr. Burton 
was questioning you, you said you agree with him and maybe we 
need to get together. It's not going to take that long, to get 
together to look at our policies with regard to Colombia. You 
also said that, and I agree with you, that we have to be 
careful about the Congress or the congressional staff micro-
managing what goes on as far as these policies are concerned.
    I just come to one basic question, and that is how do we 
help you accomplish what you have to accomplish? I, deep in my 
heart, I believe that we are pretty much on the same page. We 
may have different routes of getting there, but I mean, I can 
hear the frustration in my colleagues because I feel the same 
kind of frustration. I also feel the frustration from you. 
Since we are all trying to get to the same place--if you don't 
mind, can you just tell us--I think Mr. Reyes alluded to the 
same thing--it's not a beatup session, but how can we work 
together to take these dollars that our constituents are paying 
in taxes and use them effectively and cost efficiently. That's 
basically what I think would be helpful for us so that we can 
receive a clear message from you so that when we walk out of 
here we can say at least we know that the drug czar has come 
in, he has laid out his problems. I don't care what anybody 
says. It is much more complicated. You have made it clear that 
it's much more complicated than I thought it was. So now, how 
do we work with you to make this work?
    General McCaffrey. Well, Mr. Congressman, first thing I 
think the hearing is enormously helpful. I think the process of 
bringing down the administration officials and asking us where 
we are and what our evolving thinking is is enormously useful. 
I think there is a follow-on step to this process, that clearly 
the situation changed. Colombia today isn't what it was 2 years 
ago. It's my own view it takes us about 3 years to see an idea 
and turn it into money and in appropriations.
    If you want to build a Blackhawk helicopter and send it to 
Colombia, it is 25 months to build the thing, the best 
helicopter on the face of the Earth. So it takes time to work 
these ideas in a coherent fashion. I think we're doing that. If 
you start looking back at the resources we've put in the 
international piece of it, they've gone up substantially. It's 
hard to throw money at Colombia, for example, or even 
helicopters. You've got to find Colombian pilots to fly them. 
That's a year of training. And meanwhile, they're fighting for 
their lives. They're not going to be able to pull people 
offline. Very complex issue.
    I think in the fall I should come back and tell you where 
we've taken our evolving thinking based on my visits to the 
region, also Mr. Pickering and others, and let's see where we 
ought to go from here.
    Mr. Cummings. I'm sure the chairman will take you up on 
that invitation and we look forward to continuing to work with 
you as we address these very, very serious problems. And I 
thank you for all that you do every day, every hour to uplift 
our country and the wonderful citizens of this great America.
    Mr. Mica. I thank the gentleman and recognize for very 
brief comments Mr. Souder.
    Mr. Souder. I had a specific comment. I want to make two 
other brief ones as well. First, I don't know where we would 
be, General McCaffrey, if you weren't there, drug czar. So 
whatever criticisms I may have of this administration or times 
of you, I want to say that for the record. I said it before. 
But if you were to leave, it would be a tremendous devastation 
to our country. If you hadn't been there and using the moral 
authority and your ability to articulate, we'd be in a lot 
worse shape. I believe we need to move ahead and not look back 
but I just have to say this for the record.
    Every time I hear you refer to the training time, I'm 
thinking that's why we were pushing this stuff 4 years ago. If 
we had been a little farther ahead of the curve, we wouldn't be 
potentially quite as bad. It would still be bad. I also want to 
say one other thing for the record. It's not meant as a 
criticism in any way. There were lots of conflict back and 
forth but as a former staffer myself, I want to say a brief 
word on behalf of staff. As I remember, when I was a Senate 
staffer, we always said the scariest thing is when somebody 
comes up and says my boss was talking to your boss in the 
elevator because the plain truth of the matter is that whether 
you're the head of GM, or the drug czar, or a Member of 
Congress, we have to raise money. We're going back and forth to 
vote on the floor. You hire people who become experts in that. 
The first time I went to Colombia, one of the people we took 
along with us as an expert was former Ambassador Buzby who had 
been Ambassador to Colombia, when what was referred to earlier 
as the courts problem there was there. He'd been over Latin 
America issues. We need that expertise. It does not mean there 
aren't going to be disagreements. It means ultimately we're 
elected by the people and we have to make those final decisions 
in this area.
    I've been to Colombia four times. Mr. Mica has been there 
many times. Mr. Barr spent much of his youth there in addition 
to his trips back. So we are trying to stay engaged but we also 
have to have experts on our staff. I wanted to make sure the 
record reflected that. That's the only point I wanted to make.
    General McCaffrey. If I may, because I share your 
viewpoint, there are enormously bright, skilled, experienced 
people on the congressional staffs. I have about 10 people 
working for me who are the most knowledgeable folks I ever ran 
into in the government on the Andean Ridge problems, but you 
can't design the Colombian police and Air Force in Washington 
with anybody's bureaucracy. It's got to be the Colombian 
authorities, their strategy. They've got to budget for it. 
They've--they can't just buy Blackhawks. They've got to get the 
training package, the maintenance package, et cetera. They have 
to see the tradeoffs. That's why I've argued push it out, let 
our Ambassador, our CINC and Colombian authorities sort out 
rational policies and then we'll decide whether or not to 
support them.
    Mr. Souder. I understand your principle, but remember in 
the constitutional powers as the United States was developed, 
we seek the advice of the administration for how to fund 
things, but it is the responsibility of Congress ultimately to 
make the funding decisions. We are saying because of your 
expertise, the way the system has evolved as we've gone much 
more to the executive branch to create offices like drug czar 
because we seek that, but ultimately we in fact do have to make 
the funding decisions as American dollars go to Colombia or 
wherever and we should be careful not to overmicromanage. When 
we feel the advisory and execution branch is not following that 
policy it is our constitutional responsibility to do the very 
thing which is if necessary to micromanage.
    General McCaffrey. Sure. I understand.
    Mr. Mica. Thank you, Mr. Souder. Being chairman, there is 
one benefit and I get to say the last word, General. We thank 
you for your testimony today and look forward to cooperating 
and working with you.
    Just a couple of things for the record. I had staff check 
on the number of flights from Howard Air Force Base and we sent 
down the Senate Caucus on International Narcotics staff, Senate 
Foreign Relations staff, House International Relations 
Committee, our subcommittee, other staff. This is the latest 
report I have, July 1999. American facilities, page 6, within 
the former Panama Canal Zone, have provided vital 
counternarcotics activities. Air operations from the base 
ceased on May 1, 1999. Before that time the 8,500 foot runways 
saw 15,000 flights annually. The base could handle up to 30 
helicopters and over 50 planes. Now, I'm sure that they had 
various missions but given 2,000 flights only would have left 
40 something planes on the ground each day. I don't think that 
was the case. And this may be incorrect. It's just the 
information that was given to our staff.
    General McCaffrey. It's a small effort, to be honest.
    Mr. Mica. Just for the record, without objection, we'll 
include that.
    Additionally, you testified that we have had successes in 
Peru and Bolivia, some of them initiated by the former chair of 
Drug Policy and who is now Speaker of the House. I think if we 
check the record, we'll find that we actually spent very few 
dollars there and have had extremely good return. Peru had a 
very difficult situation with its insurgency problem so it's 
not dissimilar. It's not totally similar in any way but they 
have been able to do it, and if we checked, it would be with 
very few dollars from us.
    And also let the record reflect that the administration did 
transfer $45 million from that region, the South American 
region. I remember going down there with Mr. Hastert. We were 
looking for the money and they had transferred it to Haiti. And 
you testified today, General, that some assets had been--had 
been transferred or used in Kosovo and that was an emergency 
situation. You have also identified an emergency situation 
here. And then finally an interesting note, we had done some 
surveillance with you, too. We found out when we were down 
there we were doing that until the vice president sent the U-
2's that were doing drug missions to Alaska to check for oil 
spills. So we do need to check what our priorities are and try 
to get them in order and look forward to working with you in a 
mutual effort to bring this situation under control.
    We thank you for coming. We look forward to working with 
you and I'll excuse you at this time.
    General McCaffrey. Thank you, Mr. Chairman.
    Mr. Mica. I call our third panel. I am going to call 
forward the Honorable Randy Beers, Assistant Secretary of the 
Bureau of International Narcotics and Law Enforcement Affairs 
of the Department of State; the Honorable Brian E. Sheridan, 
Assistant Secretary of Special Operations and Low Intensity 
Conflict with the Department of Defense; Mr. William E. 
Ledwith, Chief of the International Operations of Drug 
Enforcement Agency; and I'd also ask if we could have Mr. 
Michael Shifter join us on this panel. He's the senior fellow 
and program director of the Inter-American Dialogue.
    I'd like to welcome this panel of witnesses and again this 
is an investigations and oversight subcommittee of Congress. We 
do swear in our witnesses. Some of you have been before us and 
some of you haven't. If you would please stand.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative. I'm 
pleased to welcome our panelists. We have gone for some time, 
and I am going to enforce the 5-minute rule. We'll put on the 
timer. If you have lengthy statements, we can make them part of 
the record just upon request or additional information or data 
that you think will be of particular importance to the record 
of this hearing.
    So with that, I'd like to welcome back and recognize the 
still standing or sitting Randy Beers, our Assistant Secretary 
of the Bureau of International Narcotics and Law Enforcement 
Affairs for the Department of State. You're recognized.

   STATEMENTS OF RANDY BEERS, ASSISTANT SECRETARY, BUREAU OF 
INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, DEPARTMENT 
   OF STATE; BRIAN E. SHERIDAN, ASSISTANT SECRETARY, SPECIAL 
 OPERATIONS AND LOW INTENSITY CONFLICT, DEPARTMENT OF DEFENSE; 
  WILLIAM E. LEDWITH, CHIEF OF INTERNATIONAL OPERATIONS, DRUG 
ENFORCEMENT ADMINISTRATION; AND MICHAEL SHIFTER, SENIOR FELLOW, 
                    INTER-AMERICAN DIALOGUE

    Mr. Beers. Thank you very much, Mr. Chairman, and I will 
make a very brief statement in opening. Thank you very much for 
this opportunity. You have, as is quite often this committee's 
role, brought us together on an absolutely critical issue that 
we are facing at this time and we all appreciate that. I echo 
General McCaffrey's statement in that regard.
    Let me say also that General McCaffrey, I think, has done a 
fairly respectable job in his opening statement of covering 
most of the material that I will want to cover and I wish only 
to say that the State Department, and INL in particular, are 
committed to dealing with the problem in Colombia, to going 
after drug traffickers in both the areas of cocaine and heroin. 
And I look forward to your questions and an opportunity to 
explain some of the questions which you all have raised in your 
own opening statements.
    Thank you.
    Mr. Mica. Mr. Beers, that's probably the shortest statement 
made by any official of the State Department in history. We 
welcome it in a way, but we'll be back for questions after we 
hear from Brian E. Sheridan, Assistant Secretary for Special 
Operations and Low Intensity Conflict with our Department of 
Defense. You're welcome and recognized, sir.
    Mr. Sheridan. Thank you, Mr. Chairman. I'm also very 
pleased to be here today to discuss the situation in Colombia. 
I think we all share the committee's concern about recent 
events there.
    In your letter inviting me to come today, you asked four 
questions. I would like to very briefly address those. In a 
written form submitted to the committee are fuller responses, 
but I would like to highlight a couple of key points.
    You asked about the nature of the drug threat in Colombia. 
To us we still see Colombia as a source of over 80 percent of 
cocaine hydrochloride production. We see recently increased 
fragmentation in the business and explosion in cultivation, a 
continued heavy reliance on aircraft for internal flights by 
drug traffickers within Colombia and what in our view is an 
increased kind of intermingling or blurring between the FARC 
and drug traffickers.
    Second, you asked what are recent initiatives of the 
Government of Colombia to address this threat. I can only speak 
to the ones that the Department of Defense are involved in, and 
as for recent initiatives, we're working with them on the 
counternarcotics battalion, enhancing their air programs and 
enhancing their riverine programs.
    And then last you asked about the regional security 
implications and for that I would simply say they are serious 
today and potentially more serious as time goes on.
    If I could close, I would like to make one pitch to the 
committee for support going forward on keeping open the School 
of the Americas. Congressman Reyes raised that a few moments 
ago and I think General McCaffrey spoke of the importance of 
the school. I think at a time when we're studying the situation 
in Colombia and are concerned about it, it's worth noting that 
over the last 5 years, 789 Colombian police and military have 
attended the School of the Americas and from a regional 
perspective, 310 Bolivians, 116 Ecuadorians, 22 Peruvians, and 
177 Venezuelans, so from a Department of Defense perspective, 
the School of the Americas plays a vital role in our engagement 
in the region and in running good sound counternarcotics 
programs.
    With that, I will conclude my statement and I look forward 
to your questions.
    [The prepared statement of Mr. Sheridan follows:]
    [GRAPHIC] [TIFF OMITTED] T5738.054
    
    [GRAPHIC] [TIFF OMITTED] T5738.055
    
    [GRAPHIC] [TIFF OMITTED] T5738.056
    
    [GRAPHIC] [TIFF OMITTED] T5738.057
    
    [GRAPHIC] [TIFF OMITTED] T5738.058
    
    [GRAPHIC] [TIFF OMITTED] T5738.059
    
    [GRAPHIC] [TIFF OMITTED] T5738.060
    
    [GRAPHIC] [TIFF OMITTED] T5738.061
    
    [GRAPHIC] [TIFF OMITTED] T5738.062
    
    Mr. Mica. Thank you. And we'd like to now recognize Mr. 
William E. Ledwith, who is the Chief of International 
Operations with the DEA. Welcome. You're recognized, sir.
    Mr. Ledwith. Thank you, Mr. Chairman, and members of the 
committee, for providing DEA the opportunity to testify at this 
very important hearing. If I may, we have a short oral 
statement and then I would request that our full written 
statement be submitted for the record.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record.
    Mr. Ledwith. Chairman Mica and members of the committee, 
DEA believes that the international trafficking organizations 
based in Colombia who smuggle their drugs into our country are 
indeed a threat to the national security of the United States. 
As a law enforcement agency, DEA must hold to a high standard 
of evidence our investigations aimed to gather evidence 
sufficient to indict, arrest, and convict criminals. Our 
evidence must be usable in a court of law and must withstand 
severe scrutiny at every level of the criminal justice process. 
With that in mind, my testimony will be limited to presenting 
the evidence that DEA holds and drawing conclusions which we 
can support given the legal standards we must meet.
    Colombian traffickers control the vast majority of cocaine 
in South America and their fingerprints are on virtually every 
kilogram of cocaine sold in United States cities and towns. In 
addition, Colombia alone now manufactures a minimum of 165 
metric tons of cocaine hydrochloride directly from Colombian 
grown coca leaf, with an almost equal amount being manufactured 
or controlled by Colombians from Peruvian and Bolivian cocaine 
base. Colombian traffickers are becoming increasingly less 
reliant on Peruvian and Bolivian cocaine base.
    As many of you are aware and as DEA has testified to in the 
past, the United States is currently experiencing a significant 
cocaine and heroin trade on the East Coast of the United States 
franchising a significant portion of their wholesale and 
cocaine operations is allowing the top level Colombians to 
remain beyond the reach of American justice. The Dominicans in 
the United States now, not the Colombians are the ones subject 
to arrest while the top level Colombians control the 
organizations from outside the United States.
    This change in operations succeeds in reducing the 
Colombian criminals' exposure to United States law enforcement 
and extradition to the United States. Reducing their exposure 
puts the Colombian bosses closer to their goal of operating 
from a political, legal, and electronic sanctuary.
    In addition to the Colombian organized crime groups 
involved in the international drug trade, there is another 
issue of great importance to both the United States and to 
Colombia. There is deep concern about the connection between 
the FARC and other terrorist groups and right wing groups in 
Colombia and the drug trade. The Colombian Government is 
responding to this armed challenge.
    DEA has in the past demonstrated its ability and 
willingness to fight drug trafficking organizations on a global 
basis. For example, we participated in the struggle against 
Pablo Escobar in Colombia, a trafficker who resorted to extreme 
acts of violence as the net was closing around him. We will 
work to indict and bring to justice any drug trafficker 
regardless of his or her associations.
    An alliance of convenience between guerrillas and 
traffickers is nothing new. Since the 1970's drug traffickers 
based in Colombia have made temporary alliances of convenience 
with guerrillas and right wing groups to secure protection for 
their drug interests. DEA intelligence indicates that many 
elements of the FARC and the ELN raise funds through extortion, 
taxation, or by directly selling security services to 
traffickers. These terrorists extort from all manner of 
economic activity in the areas in which they operate.
    In return, the terrorists protect cocaine laboratories, 
drug crops, clandestine air strips and other drug interests.
    However, these terrorists are not the glue that holds the 
drug trade together. If the traffickers did not buy security 
from the FARC or ELN, they would certainly buy it from 
elsewhere as they have done in the past. It is however true 
that the cash cow represented by the drug trade has taken on a 
major role in financing the terrorists.
    The physical threat posed by the terrorists is very real. 
The frequent ground fire sustained by CNP aircraft when engaged 
in eradication missions over FARC or ELN controlled areas is 
indicative of the extent to which the terrorists will go to 
protect the drug interests.
    DEA's partner in Colombia, the Colombian National Police, 
is a major law enforcement organization with a long and honored 
tradition of professionalism and sacrifice. CNP is aggressively 
pursuing significant counterdrug operations against cocaine 
processing laboratories, transportation networks, and 
trafficker command and control elements.
    By way of conclusion, we can and should continue to 
identify and build cases against the leaders of the criminal 
groups from Colombia. A number of initiatives hold particular 
promise for success. DEA is fully committed to supporting 
efforts currently under way to train and equip effective forces 
within the Colombian military to counter the narco terrorist 
threat.
    The excellent working relationships DEA enjoys with the 
Departments of State and Defense on counterdrug issues will 
provide a foundation for sustained cooperative effort in these 
undertakings. The United States Embassy's Information Analysis 
and Operation Center will be increasingly utilized to 
coordinate and analyze tactical information regarding the 
transportation and production activities of drug trafficking 
groups active in the Colombian territories south and east of 
the Andes Mountains. Special Investigative Unit programs funded 
under the Andean Ridge Initiative will continue to work closely 
with DEA and conduct high level drug investigations against the 
most significant violators.
    The CNP, in concert with DEA and other law enforcement 
agencies, is conducting several sophisticated investigations 
which we believe will lead to the dismantling of major portions 
of the most significant drug trafficking organizations 
currently operating in Colombia. The DEA will continue to work 
with our partners in Colombia to improve our cooperative 
efforts against all those involved in drug trafficking.
    Thank you for the opportunity to testify before the 
subcommittee today. I will be happy to respond to any questions 
you may have, sir.
    [The prepared statement of Mr. Ledwith follows:]
    [GRAPHIC] [TIFF OMITTED] T5738.063
    
    [GRAPHIC] [TIFF OMITTED] T5738.064
    
    [GRAPHIC] [TIFF OMITTED] T5738.065
    
    [GRAPHIC] [TIFF OMITTED] T5738.066
    
    [GRAPHIC] [TIFF OMITTED] T5738.067
    
    [GRAPHIC] [TIFF OMITTED] T5738.068
    
    [GRAPHIC] [TIFF OMITTED] T5738.069
    
    [GRAPHIC] [TIFF OMITTED] T5738.070
    
    [GRAPHIC] [TIFF OMITTED] T5738.071
    
    [GRAPHIC] [TIFF OMITTED] T5738.072
    
    Mr. Mica. Thank you. We'll withhold questions until we hear 
from Michael Shifter, who is a senior fellow and program 
director at the Inter-American Dialogue. Welcome. You're 
recognized, sir.
    Mr. Shifter. Thank you very much. Mr. Chairman, I 
appreciate the subcommittee's invitation to testify at this 
very important and timely hearing. Just a year ago I had an 
opportunity to testify before the Subcommittee on the Western 
Hemisphere on the political and security situation in Colombia.
    The main point I want to convey today is the following. The 
goal of the United States should be to help improve the 
Colombian Government's capabilities and effectiveness. We 
should help the government reach a political solution to the 
country's intense conflict from a position of strength. We are 
currently not doing all we can to advance this goal.
    Colombia desperately needs political reconciliation. This 
is the first and critical step in what will inevitably be a 
long-term process. The ultimate aim is to construct a more 
inclusive society and more effective institutions. President 
Pastrana, along with most Colombians, instinctively understand 
this. It is hard to imagine a successful effort to fight drug 
production and trafficking without a strong and stable 
Colombian Government. It is crucial to first establish a 
greater measure of authority and control over the forces in 
conflict. For Colombians, this is the priority.
    The Pastrana government faces two fundamental challenges. 
The first is to, clear and comprehensive strategy to help 
Colombia move toward greater reconciliation. The second is to 
forge a national consensus behind such a strategy. The strategy 
should attempt to do three things. Set firm goals, spell out 
what the Colombian Government is prepared and not prepared to 
accept in any negotiations, and organize resources accordingly. 
Colombians will have to work out the details of such a strategy 
and assume responsibility for carrying it out.
    The strategy will no doubt include many aspects. These may 
range from economic support to help with mediation efforts, 
from development assistance to the strengthening and 
professionalization of the military. The United States can and 
should help Colombia deal with its difficult challenges. We 
have many reasons to be interested in what happens in Colombia 
and to do what we can to contribute to a more prosperous, 
stable, and democratic country. This means engaging with the 
Pastrana government in the most respectful and constructive 
way. It also means consulting widely among our hemispheric 
neighbors and other friends to mobilize and sustain adequate 
backing for President Pastrana's approach.
    It is crucial, however, that the support provided by the 
United States or the international community be consistent with 
and help reinforce the strategic purposes set by the Pastrana 
government.
    It is not surprising that some United States officials are 
edging toward support for Colombian security forces. The key 
question, however, is what the United States realistically 
expects to accomplish with such support. Is it in fact the 
purpose of United States/Colombia policy to defeat the 
guerrillas? Is it to reduce drug production? Or is it to 
enhance the Colombian Government's leverage to negotiate peace 
with the insurgents?
    For many the answer is simple. All of the above. They 
regard the guerrillas and those involved in the drug trade, 
producers and traffickers alike, as virtually 
indistinguishable. These groups are in fact interconnected in 
complex ways, but they're distinct and ought to be understood 
as such. No one disputes that the guerrillas, the insurgents, 
draw substantially from the drug economy for their strength.
    Important consequences flow from failing to distinguish 
between guerrillas on the one hand and drug producers and 
traffickers on the other. For one, the tradeoffs among 
different policy aims tend to be ignored. We should realize 
that not all objectives have equal weight and not all policies 
can be pursued at the same time. That is why we should keep our 
main objective, improving the Colombian Government's 
capabilities, in sharp focus. Achieving peace with the 
guerrillas and reducing drug production will come about only as 
a consequence of that improvement.
    What is crucial is to face squarely what military aid to 
Colombia actually means. Should the United States make 
defeating the guerrillas its main goal? If so, how much would 
that cost and how long would it take? Once undertaken, how far 
is the United States prepared to go? The Colombian situation 
has all of the elements of a slippery slope or mission creep 
but military assistance is at best only part of what needs to 
be a comprehensive approach to help Colombia deal with its 
underlying problems.
    That is why a wide ranging program of reform and 
reconciliation in Colombia is essential. Increased United 
States support for the Colombian armed forces should be 
seriously considered but that step should be an appendage of a 
broader strategy designed to strengthen democratic institutions 
and obtain political reconciliation. Too often, pursuing peace 
and supporting the military are regarded as mutually exclusive. 
They should not be. That false dichotomy only further polarizes 
the already difficult politics of Colombia's peace effort.
    As I mentioned at the outset, the fundamental goal of the 
United States should be to help improve the Colombian 
Government's capabilities and effectiveness to enable it to 
negotiate from strength. This is the best way we could 
contribute to the kind of profound institutional change 
Colombians desperately want and deserve.
    Thank you very much.
    [The prepared statement of Mr. Shifter follows:]
    [GRAPHIC] [TIFF OMITTED] T5738.073
    
    [GRAPHIC] [TIFF OMITTED] T5738.074
    
    [GRAPHIC] [TIFF OMITTED] T5738.075
    
    [GRAPHIC] [TIFF OMITTED] T5738.076
    
    Mr. Mica. Thank you for your testimony. Mr. Beers, as my 
dentist said before he was going to take out my wisdom teeth, 
I'll try to make this as quick and painless as possible.
    Mr. Beers. That was my intent in not reading a longer 
statement, sir.
    Mr. Mica. Well, I think you see sort of unanimous consent 
that we want the equipment to get there, that Congress has 
appropriated a significant amount of money and we keep hearing 
it over and over. It's now the third largest recipient of 
foreign aid but the equipment isn't getting there and we still 
have four upgraded Huey II helicopters sitting on the tarmac in 
Ozark, AL, waiting to be shipped.
    Mr. Burton, the chairman of the committee, went through a 
litany of delays that we've had. Can you tell us where we are? 
What's our hope of getting these there and the latest 
timetable?
    Mr. Beers. Yes, sir, I can. With respect to the 10 Huey 
helicopters that were being upgraded to the Huey II 
configuration, we began the contracting in March of last year. 
The delivery of the kits, that is, the portion of the plane 
that has to be installed in the older helicopter in order to 
bring it up, were delivered according to a schedule that had 
been proposed by Bell Helicopter. Those kits began arriving in 
their full form in November of last year. There were some 
delays in some portions of those kits which caused them all not 
to arrive on their original schedule.
    There was also a misestimate with respect to the amount of 
time with which it would take to actually bring the helicopters 
into the configuration required. That is a combination both of 
taking older helicopters, which they were, and bringing them up 
to full capability, and then also installing the kits. So there 
was a delay which resulted there.
    And third, there was some additional requirements that were 
requested by the Colombian National Police after the first two 
helicopters were supplied in the February timeframe which added 
some time to submitting the design specifications and adding 
that equipment. That amounted to what is for you and for me a 
delay, which is far too long----
    Mr. Mica. But they are on the tarmac now----
    Mr. Beers. But they are on the tarmac. The first of the 
four was received in June for transportation. The second two 
were received after the middle of July and the fourth is in 
receipt now. We contracted for the plane. After we have the 
three, the Air Force provided us with transportation free of 
charge for next week and that is the reason that there are----
    Mr. Mica. That's what I was trying to get to----
    Mr. Beers [continuing]. There are four now ready to go. We 
don't ship normally smaller amounts than four or five.
    Mr. Mica. They'll be there by next Friday or Saturday. The 
next question would be Congress also authorized and 
appropriated money last year for six Blackhawk helicopters for 
the Colombian National Police. To date, how many of these 
helicopters have been delivered, are actually in Colombia?
    Mr. Beers. Sir, there are no Blackhawk helicopters in 
Colombia at this particular point in time. The money was made 
available for signing contracts in February of this year. The 
contracts were signed immediately. The Army allowed us to move 
to the front of the line to take Blackhawk helicopters for this 
particular project. The specifications had been agreed upon 
during the timeframe from the passage of the Western Hemisphere 
Drug Elimination Act until the funds were provided to us in 
final form, so there was no delay with respect to that.
    So the helicopters, we'll have three of them that will be 
delivered in November and three more which will be delivered in 
March with pilots, mechanics, and spares so that they will all 
be ready. The Colombia National Police had neither the pilots 
nor the spares available at the time. They chose not to train 
on helicopters other than the ones which they had ordered so 
that a possible speeding up of the aircraft delivery time with 
pilots might have been possible. That's their choice and that's 
the delivery schedule.
    Mr. Mica. Mr. Beers, one of the latest rumors to float is 
that now the lawyers in the State Department have suggested the 
need for an export license to transfer the Blackhawk 
helicopters to Colombia. Is that the case? Have you heard that 
may be required?
    Mr. Beers. No, sir, I have not heard that may be required, 
but we will comply with the law.
    Mr. Mica. We also lost one aircraft, an ARL, airborne 
reconnaissance low plane, and I think that there have been 
listed as requirements that we may need as many as 15. We've 
lost one and the cost of those is around $30 million a piece. 
Mr. Sheridan, is there going to be a supplemental request for 
this equipment?
    Mr. Sheridan. At this time, Mr. Chairman, I'm not sure. 
Certainly we have been in discussion with General McCaffrey's 
office about a possible supplemental and what it would look 
like within the department. We're certainly looking at the 
various programs that would make good candidates for such a 
list. Obviously with the loss of the ARL, that would be a 
logical candidate, but it's pretty early.
    Mr. Mica. Mr. Barr asked the question about if the 
administration was preparing a supplemental--emergency 
supplemental request and he named some agencies. Is your agency 
working with either the drug czar or anyone else from the 
administration to come up with numbers to present to Congress 
for a new supplemental request or emergency supplemental?
    Mr. Sheridan. I have to be careful, Mr. Chairman, because 
I'm not a Comptroller type and I don't know what form it will--
such a thing if it comes to pass, will eventually take but I 
know we are looking at programs right now. We are working with 
our Comptroller. They are in discussions with OMB but it is 
very, very early in that kind of process and how that all ends 
up playing out is above my pay grade, but we are certainly 
looking at it.
    Mr. Mica. Mr. Beers, you are working on part of that 
request with the drug czar?
    Mr. Beers. We are, sir.
    Mr. Mica. Mr. Ledwith, are you involved? Have they asked 
DEA the figures?
    Mr. Ledwith. Sir, I'm not personally involved but I'm aware 
those discussions are under way at the more senior levels of 
our agency and Department of Justice.
    Mr. Mica. Finally, Mr. Beers, do you have any idea when the 
agency or the drug czar might be coming back to Congress with a 
supplemental request?
    Mr. Beers. Sir, I can't say with precision when it will be 
that that will be ready. I just don't know, although I think 
Congressman Souder probably provided us with the most accurate 
expression of how this is all going to take place when he spoke 
about a mid-September timeframe.
    Mr. Mica. Thank you.
    Mr. Cummings, you're recognized.
    Mr. Cummings. Thank you very much, Mr. Chairman. If I were 
just one of the many people watching this right now on C-SPAN, 
I think I'd be a bit frustrated when we think about sending a 
space capsule all around the--in outer space and then get it to 
land at a precise moment in a precise place. I don't know that 
much about the military, and then they sit here and they hear 
all the difficulties that we are having with these Blackhawk 
helicopters and the Hueys. I tell you, I'm sure it gets kind of 
frustrating to them and I'm sure they're sitting there right 
now just kind of scratching their heads and there are some of 
them that are sitting in my district probably looking out a 
window right now as drug deals are taking place and they're 
tying to put the two together.
    One of the biggest complaints I get in my district is that 
drugs are flowing in but the people in my district own no 
planes. They own no ships, no trains, no buses, and they're 
coming from somewhere. And so when they hear this, and I go 
back and I say to them this afternoon--I'll be back there in 
about an hour or two--and they say we saw you on C-SPAN and you 
see, I told you. I told you that we should be doing a better 
job and I heard what they said about those Blackhawk 
helicopters and see, Mr. Cummings, and see, they had become 
very cynical and they believe that the government in some 
instances is almost a part of allowing this--these drugs to 
come into their communities.
    With that statement, let me ask you this, Mr. Beers. You 
told us a moment ago that--correct me if I'm wrong--that we'll 
have three Blackhawks in November and three more in March; is 
that right?
    Mr. Beers. That's correct, sir.
    Mr. Cummings. And as you were going down the list of the 
problems with the Hueys, you said three things that I have 
listed here. You said there were delays, there was a 
misestimate, and then there were additional requirements. And 
I'm just trying to figure out how--how do we--what happens to 
us here as we get a little frustrated because we come back 
and--how do we know we're not going to hear the same excuses 
over and over again? I don't know whether you heard Mr. Ose's 
comments a little earlier about his frustration because I'll 
tell you, I think we're sort of--we're pretty much in agreement 
on this. We want to see things happen and this is already a 
slow process up here. But we do like to see things happen 
because people are dying as we speak. People are getting 
addicted as we argue.
    So I'm just trying--can you give us some assurances so that 
we--I always say a lot of times what happens is people get 
caught up in motion, commotion, and emotion and no results. And 
so the question is, is whether when the time comes in November 
how can we be assured that these Blackhawk helicopters are 
going to be where they're supposed to be, doing what they're 
supposed to do, so that people watching this and the Congress 
can have the kind of faith and confidence that they need? Can 
you understand the frustration?
    Mr. Beers. Sir, thank you for the opportunity to respond. I 
answered the questions which were asked me. Let me give you the 
answer now that tells the picture of the entire story.
    We have focused on the delivery of some helicopters and 
they are important and I don't mean to diminish that. Last year 
INL and the Colombian National Police police sprayed 66,000 
hectares of coca in Colombia. We sprayed 3,000 hectares of 
opium poppy in Colombia. This year to date we have sprayed 
7,500 hectares of opium poppy and we have sprayed 27,500 
hectares of coca. That is the effort that INL and the Colombian 
National Police make together.
    In addition to that, we have raided labs. The Colombian 
National Police captured approximately 30 metric tons of 
cocaine last year and they are on a similar pace this year. 
There has been no delay, no delay in the prosecution of the 
campaign against opium poppy for lack of helicopters. We began 
that campaign in earnest this fall and we have not had 1 day 
that we didn't fly because those helicopters weren't there. 
There are adequate helicopters that are there. They are flying 
when they can fly because of the weather, but we still are 
continuing to make that effort. These helicopters will help 
expand that effort but we also have other needs. What we do 
with most of our money, what we do with most of our support is 
provide assistance to the Colombian National Police and their 
air wing to keep their planes and our planes in the air. These 
will be additional planes. They will help. But there's been an 
effort that's been ongoing throughout this period of time. I 
want these new helicopters to get there as quickly as possible 
but we will go with what we have when we have it and we will 
continue to make a significant effort, sir.
    Mr. Cummings. I am so glad that I asked you that question 
so that you could say what you just said. We need to hear that. 
The American people need to hear that. And I'm glad you said it 
the way you said it. I really mean that. Because those are the 
kinds of things that we need to know. And I agree with you 
after you said what you just said that maybe we are putting too 
much of a spotlight on one thing and not dealing with all the 
other good things that are happening. Now I feel a little bit 
better about going back to my district this afternoon and I 
can--I'm sure they'll quote you. They'll probably even remember 
your name. Thank you very much.
    Mr. Mica. I thank the gentleman. I recognize now Mr. 
Souder, the gentleman from Indiana.
    Mr. Souder. Just so nobody thinks that we just do this to 
have a public debate for television, we've argued in hotel 
lobbies in Santiago. We've argued in bathrooms. And I have a--I 
want to plunge into some of the particulars and some 
clarifications but I have a couple of particular questions that 
I want to clarify. Are the helicopters to Colombia the top 
priority? In other words, are they designated what I understand 
is FAD, force activity designator, so it's the top priority in 
getting military equipment over to places like Chile, 
Argentina, or other places where we're not at war? Is it the 
top priority?
    Mr. Beers. We have requested that of the Department of 
Defense. We have not yet received an answer from that, sir, but 
with respect to the helicopters themselves with respect to 
INL's effort, they are our top priority at this point in time 
in terms of the delivery of product here that needs to be down 
there.
    Mr. Souder. When did the request go to the Department of 
Defense?
    Mr. Beers. In June.
    Mr. Souder. Mr. Sheridan, do you know why that hasn't been 
acted on?
    Mr. Sheridan. Congressman, I'll have to get back to you on 
that. I will check into that.
    Mr. Souder. Thanks. This is--I mean, this isn't years at 
least. It's months, but when there is a war going on and we 
heard about the nature of the crisis, I would hope that we 
could move as fast as we seem to in other areas of the world 
where we may not have the same compelling national police 
interests, which was an editorial comment, I realize.
    Another very specific question. We have really struggled 
with the Leahy amendment and how to work with the applications 
of the Leahy amendment, and my understanding is that there was 
an allegation of a human rights violation lodged against a 
senior officer of a brigade sized Colombian unit, the result of 
blocking any United States assistance to that brigade and that 
Colombia has very few brigade sized units which are capable of 
conducting offensive operations, so the strict interpretation 
of the Leahy amendment has resulted in weakening their ability, 
and our ability to do that.
    Would you have the State Department's legal advisor provide 
this committee with some detailed recommendations and 
legislative language to address the current limitations imposed 
by the Leahy amendment? Because we have some belief that they 
are willing to kind of work with this too, that part of the 
problem here, and I have directly talked to their defense 
ministers and military commanders too as have many others and 
they are trying to vet the units.
    In fact, we have said that we want to be so careful that 
even when there is a complaint lodged, but if a complaint is 
lodged, are there ways we can get the individual separated so 
we don't in effect shut down a whole brigade because of a 
complaint lodged against one individual? Because if we are in 
the nature of the crisis that we've heard about today, this is 
really micromanaging to the detriment of not only the United 
States and Colombia but the entire world, as we hear it's going 
to Europe and everywhere else.
    Mr. Beers. Sir, I will take that question back and we will 
provide you an answer in that regard. Let me say on behalf of 
the Colombian Government and our effort to deal with this issue 
to date, part of the reason that you all are hearing about this 
counternarcotics battalion which is being established now is a 
realization on the part of the government of Colombia in 
conjunction with consultations with us to rebuild units in 
order that these issues are not relevant to the discussion of 
assistance to those kinds of units. That is, I think, a 
valuable and important move on the part of the Government of 
Colombia that will, even without any change in legislative 
language, make this process a lot simpler in terms of our 
ability to certify that the units are eligible for assistance 
and to maintain constant oversight of that as the legislation 
requires us to do.
    Mr. Souder. Another question I have is that regarding these 
counterdrug battalions, it is my understanding that they're to 
be activated in December, that there is no particular budget 
for air mobility for these units. I would hope that any 
supplemental request that comes up or emergency requests would 
address this question. We have worked for years.
    I would argue we're at least 3 years behind where we wanted 
the Blackhawks into the CNP and I'm very concerned that those 
are going to be diverted into this other important battalion. 
I'm not arguing against it because you have to have both 
fighting but we had a specific intent of Congress and we want 
to make sure on the record that there's an understanding that 
there needs to be a budget for this battalion if we're going to 
do that, not transferring what we committed to the CNP.
    Mr. Beers. Sir, I can assure you that the Blackhawks that 
you all asked be provided to the CNP will be provided to the 
CNP and the ones that have come off the line will be the ones 
that will be provided. There will be no substitute or any delay 
caused by any displacement for another requirement.
    Let me indicate to you that with respect to the issue of 
the mobility of the counternarcotics battalion and the 
counternarcotics effort on the part of the Colombian military 
that we have proposed to them and they have accepted and we are 
in the process now of working through the details an interim 
lift capability which will involve the provision of certain 
helicopters that are within the INL inventory to give them an 
interim lift capability until such time as they have the 
Blackhawks that they would like.
    So we will be doing our part with respect to assets that 
are already within INL's control in order to make sure that 
this battalion is in a position to move as soon as they're 
through with their training because, as General McCaffrey said, 
if you wanted to buy a Blackhawk today and you put your money 
on the table absent any other provisions, you have to wait 25 
months before that Blackhawk comes off the line and is 
available.
    Mr. Souder. And I would again hasten to point out that I 
agree with that point, which is why we started this process 4 
years ago. I am not one who is going to take that real lightly 
because if we would have started this process, we would now be 
talking about how we would be addressing the full----
    Mr. Beers. And my ability to have the aircraft in order to 
provide the interim lift capability is a direct result of you 
and your committee's and this Congress's efforts to provide us 
with the resources and we appreciate that very much.
    Mr. Souder. I'd like to move--I know Chairman Gilman came 
in so I appreciate giving the extra time here to--you made some 
comments earlier that I want to clarify and try to put this in 
context briefly or we're going to get really arcane real fast 
as we've argued over even the guns and the bullets in the 
different helicopters we're sending down and the cost of the 
bullets I should say as to which gun we were going to do. That 
first off that I think there's no disagreement with your 
earlier point in response to Mr. Cummings that nobody should 
think that we've stopped efforts anywhere along the line and 
that the State Department and the Colombian National Police and 
Colombian Government have been aggressive in trying to do what 
they can with the resources that they have.
    However, we also heard earlier today that this has exploded 
in Colombia and clearly those resources are not sufficient in 
that as we were squeezing, particularly with President Fujimori 
in Peru and President Banzer in Bolivia. We in effect moved the 
problem and we should have been able to anticipate that some 
because now we're in these 2-year lead times. General Serrano 
said in fact he needs 100 helicopters to effectively do his job 
because even if 80 percent of them are flying, the problem has 
increased, the nature of the problem increased, and the interim 
solution that we worked out as we've heard, the Bell 
helicopters and, quite frankly, we had some discussion they 
weren't in the greatest shape but they were in terrible shape 
and that it costs extra funds.
    I do want to say for the record too as we've discussed this 
a number of times, some of the decisions in the alterations 
were from General Serrano. Some of the decisions were in my 
opinion the fault at our end. Certain basic things were not in 
the helicopters that would have been expected to be there.
    Other things we were arguing about changing, we wanted, as 
some people said, the Cadillac version of the guns. There were 
questions about the price of the bullets in relationship to 
those guns and a number of things. Some of the helicopters 
didn't even come with basic things and that the delays 
implication here was--is that a significant part of the delays 
were coming because of modifications from the Colombia National 
Police and I believe some may have been but even those were 
because of policy debates here as well. Things that would--you 
would normally expect to have in it so they were not 
unreasonable demands, for example, to have a gun or a gun 
holder or a machine gun holder. There were some things that the 
Colombian National Police were coming back with that weren't 
kind of extras. They weren't like electric windows or 
something. They were kind of basic things in helicopters that 
in my opinion we should have had going down. Because I wanted 
to clarify because it sounded like they were just being overly 
picky as opposed to we in effect sent them some shells almost 
in some of these cases.
    Mr. Beers. Sir, if I gave the impression that there was one 
particular area that was the primary area of responsibility for 
the delay, I did not mean to do that and I'm not prepared to 
assign responsibility, first responsibility here, there, or 
elsewhere. I was simply trying to give the committee a sense of 
the variety of issues that caused this.
    First, let me say with respect to the issue of the first 
two which arrived down there, they did not arrive down there 
without the knowledge of the Colombian National Police of what 
they were coming with. When they got down there and saw what 
they had, they had some desires to make some changes. That's 
understandable. This was the first time that they had received 
this. So what we did was to try to make those changes to those 
helicopters and to make sure that the subsequent helicopters 
also had those changes on them.
    Mr. Souder. Could I ask you a specific question related to 
that specific point, that partly that was an agreement for 
those helicopters that we struck. It was not originally the 
request----
    Mr. Beers. Are you talking about the Bell 212's, sir, or 
are you talking about the Huey IIs?
    Mr. Souder. Both of those were neither their choice. First 
we upgraded the Huey IIs and then we did the Bells because the 
Blackhawks had been delayed for such a long period of time, but 
in those different cases why wouldn't you have talked to the 
CNP first about that or more informed them because in effect 
they were new in this. Here's what's--you said that once they 
got them, they wanted no unreasonable modifications, but why 
wouldn't that discussion have occurred at the front end?
    Mr. Beers. We did have that discussion beforehand, sir, and 
what I'm saying is when they saw them compared to other 
helicopters, they had some changes that they thought they 
wanted to have made and that's what we tried to do was to make 
those changes so they would be available for them. There was 
nothing that was withheld from them. These are discussions that 
we have with them on a regular basis about what it is that we 
purchase and provide for them. We don't just give them things 
that we think that they need without talking with them.
    Mr. Souder. I realize the chairman's been very generous. I 
would just like to say that part of this I think is that they 
are in this case the--they are adjusting as best they can to 
get the best resources they can from us and then--but it is 
not--because they say we would like this upgraded or compared--
they get new helicopters and say hey, we thought we would like 
these to be like the other INL does not mean they're holding up 
the process. It means that to some degree they're having to 
take what they can and then seek out upgrades from us and we 
need to continue to work through that. I'll yield back.
    Mr. Beers. Yes, sir. That is absolutely our intent as well, 
to work this as quickly as possible, to get them the equipment 
as quickly as possible and to get it to them in the form that 
they want it in.
    Mr. Mica. I thank the gentleman from Indiana. I'd now like 
to recognize the chairman of the International Relations 
Committee, also a member of our subcommittee, Mr. Gilman from 
New York.
    Mr. Gilman. Thank you, Mr. Chairman. Again, I can't thank 
you enough for continuing with this concern on our narcotics 
strategy and what we can do to help Colombia. I regret I had to 
leave to go to another meeting, but I'm pleased I was able to 
get back here for this panel.
    Secretary Beers, we're now convinced that we're going to 
try to provide to General Serrano all of the helicopters that 
he needs. He's talked about if he had 100 helicopters, he could 
eradicate the whole crop within a 2-year period. Are we going 
to be supportive of that request?
    Mr. Beers. Sir, General Serrano has never requested 100 
helicopters from me. I will talk to him about that, but I can't 
say I've ever heard about that. We certainly talked on a 
regular basis, including earlier this week, with respect to 
various levels of requests. I have no requests for 100 
helicopters.
    Mr. Gilman. It was my impression that his staff had shared 
that information.
    Mr. Beers. I have not ever seen that request, sir. I will 
check with my staff, but I can't say that I'm aware of it.
    Mr. Gilman. If a request comes to you, will you be able to 
support his request?
    Mr. Beers. We will with the available funds look if we can 
fulfill that request. I can't commit to you 100 helicopters 
because I have to figure out how to pay for them or we have to 
figure out how to pay for them.
    Mr. Gilman. We'll work with you if you're in agreement that 
this has to be done and you come back with us with a proposal. 
I'm sure that a number of the members on this committee 
particularly will try to be of help to you.
    Mr. Beers. I appreciate that, sir.
    Mr. Gilman. Secretary Beers, as to the helicopters assigned 
to Colombia; 23 are in flying status and 15 are not flying 
because of maintenance problems and lack of parts. Just in June 
1998 you assured us that any twin engine helicopters going down 
there, and I quote you, will not be hangar queens and yet he's 
got about 15 that are ``hangar queens'' right now. A year and 
several million dollars later only two of the six INL provided 
Bell 212's are flying.
    Can you tell us what we can do to beef that up, this 
situation momentarily, without waiting for a whole new process 
to go through to get additional flying equipment?
    Mr. Beers. Sir, with respect to the six Bell 212's which 
were provided, it is correct that today on the flight line two 
are available to fly. Of the remaining four, one was crashed 
not too long ago and has been destroyed. Of the other, the 
second was the subject of a hard landing by the Colombian 
National Police, which has caused significant damage to the 
plane. That plane is currently being repaired by us and them, 
and we will put it back on the flight line as soon as it is 
available.
    With respect to the other two, one is down for scheduled 
maintenance; the other one is down for a fuel cell replacement 
process, which is under way on a priority basis.
    With respect to the helicopters, other than the one which 
was crashed and the one which had the hard landing which has 
had to be taken out of service, that is with respect to five 
until just recently and with respect to four now, the 
operational readiness rate of those helicopters has been at 
about 65 percent, which exceeds the operational readiness rate 
of any other element of the Colombian National Police Air 
Service.
    So to say that something was a hanger queen by definition 
never flies. These Bell 212's fly. They don't fly every day, 
but no plane does. They have to spend some time in maintenance. 
You roughly fly for an hour and maintain something like that 
for 2, 3, 4, 5 hours, depending upon the aircraft.
    So I believe that I delivered helicopters that were 
flyable, and that they have been flyable within the terms of 
what one would normally expect out of helicopters.
    Mr. Gilman. Secretary Beers--and I appreciate your 
response. If that's a normal kind of problem, these maintenance 
problems, crashes, et cetera--if he has only 23 that are 
flyable right now, it would seem to me that we would want to 
add something on an expedient manner to give them more air 
capability, rather than wait for a whole new project. Can't we 
move some additional equipment down now?
    Mr. Beers. Sir, we will talk with the Colombian National 
Police and see what we can do.
    Mr. Gilman. We would welcome that, and anything we can do 
to assist them in what they're trying to do I think would be 
helpful. And if we're worried about the massive amount of 
illicit narcotics coming out of that country, whatever we can 
do to help them interdict, that would be very helpful and to 
eradicate it at the same time.
    Are you going to be making a new budgetary request for the 
year 2000, and will that be in addition to what you've asked 
for this year? Is it going to be an increase? What will be your 
budgetary requests for the coming year?
    Mr. Beers. For fiscal year 2000?
    Mr. Gilman. Yes, fiscal year 2000.
    Mr. Beers. With respect to the discussions which are 
currently under way which General McCaffrey spoke of and others 
have spoken of, there is a review under way of what the 
situation in Colombia is like, and as we come to the conclusion 
of that review, we will be back to inform you of what our views 
are on that. But at this particular point in time, I can't tell 
you that there will or will not be a budget request, because 
that hasn't been decided yet, and it's not my position to say 
anything about that, sir.
    But we will--as General McCaffrey promised to you, be back 
to you when we have----
    Mr. Gilman. What is your general thinking right now? 
Knowing what the problem is and knowing the inadequacy of what 
we've been doing up to date, what is your thoughts? Are you 
thinking about an increase right now or a decrease?
    Mr. Beers. Sir, I'm not at liberty to tell you what the 
deliberations within the administration are.
    Mr. Gilman. I'm asking what your recommendations would be.
    Mr. Beers. I understand, sir, and I'm part of an 
administration and part of a team. In my written statement, I 
submitted that I think and we all at the State Department 
believe that this situation in Colombia is a very serious 
situation and needs very careful review. Anything that we do in 
Colombia--and we have heard from a variety of members of the 
committees about how difficult the choices will be. You've also 
heard from witnesses about how difficult the choices would be.
    It would be premature at this point in time for me to tell 
you what the recommendation could or should be, in part because 
part of this process is critically dependent upon what the 
Colombian Government is prepared to do and thinks. And while 
General McCaffrey has had one round of discussions and Under 
Secretary Pickering will have another round of discussions next 
week, all of that is part of building the process to the point 
that we actually have something that we have come to a judgment 
on and something that we're prepared to do.
    And at this point in time, Congressman, I'm not in a 
position to tell you what that ought to be.
    Mr. Gilman. Well, I would like to recommend--I'm sure my 
colleagues would like to recommend to you that we make certain 
that we provide the kind of resources that are needed down 
there to accomplish what we're seeking to do and that's to 
eradicate the supply and to interdict the supply coming to our 
Nation.
    Mr. Beers. Thank you, sir. We appreciate the support you've 
given us over the years.
    Mr. Gilman. Let me thank you, Mr. Beers.
    Now, let me refer now to Mr. Sheridan of the Defense 
Department.
    As you know, Mr. Sheridan, we helped the Mexican military 
obtain 70 or more excess Hueys several years ago. We've now 
been informed that they plan to rid themselves of nearly 50 of 
these old choppers. Can't we arrange to have some of those 
choppers that are still operational be upgraded to superHuey 
status by use by the police in Colombia to fight drugs at a 
fairly reasonable cost to us, since the Mexicans are about to 
unload those?
    Mr. Sheridan. Well, let me first say that, regarding the 
helicopters in Mexico, it is the case that we are bringing them 
back. There will be, I believe, 20 that will remain. But I have 
to be very clear that that Department of Defense authorities do 
not allow us to spend funds for upgrading helicopters and then 
transferring them to a third party. We're not permitted to do 
that. What we usually end up doing is working with Randy on 
those kinds of arrangements.
    Mr. Gilman. Well, it seems you're pretty close to each 
other even at this table.
    Mr. Beers. And with our discussions about budgets and 
activities and programs, yes, sir.
    Mr. Gilman. But let's talk about the efficiency of this 
kind of a project. Here you're taking 50 choppers back from 
Mexico. When will they be back with us?
    Mr. Sheridan. They will be back soon.
    Mr. Gilman. How soon?
    Mr. Sheridan. If my latest information is correct, the 
first ones will be moved back by truck imminently, if not 
already departed Mexico.
    Mr. Gilman. So some are on their way already.
    Mr. Sheridan. Yeah, could be.
    Mr. Gilman. What will it take to make them operational for 
Colombians?
    Mr. Beers. Money.
    Mr. Gilman [continuing]. How much would it take to make 
these operational?
    Mr. Sheridan. I think the first step--and we will have them 
back in a central facility. The first step will be a very 
detailed examination, tail number to tail number, just to----
    Mr. Gilman. Just approximately what would it take to make 
one of these operational? Most of them are operational now, as 
I understand it.
    Mr. Sheridan. Especially to upgrade, probably a couple 
million, isn't it?
    Mr. Beers. The upgrades, sir, the kit alone is $1.4 
billion.
    Mr. Gilman. For each chopper.
    Mr. Beers. For each helicopter. To make a Huey II out of 
it. To make them operational----
    Mr. Gilman. I'm not talking about making the Huey II.
    Mr. Beers. I'm trying to answer that, sir.
    With respect to making them operational, it is entirely 
dependent upon the review that Brian's people have to make to 
see what the repairs required are. But the general review that 
we and they conducted earlier was that they were in pretty bad 
shape.
    Mr. Gilman. What would you estimate--you both are experts. 
What do you estimate it would cost to make a chopper of that 
nature operational to send it back down to Colombia?
    Mr. Beers. $300,000 to $500,000 a chopper, if they are in 
as bad a shape as they are supposed to be.
    Mr. Gilman. How much would a new chopper cost?
    Mr. Beers. There isn't a new Huey 1H.
    Mr. Gilman. The similar.
    Mr. Beers. 412 runs on the order of $6 to $8 million.
    Mr. Gilman. So there's a substantial savings between the $6 
to $8 million to the $300,000 or $400,000 of making these 
operational. Can't we explore the possibility of rehabing these 
choppers and sending them back to help Colombia while we're 
waiting for Black Hawks to be sent down?
    I'm going to ask you to explore that and get back to our 
committee. Mr. Chairman, with your permission, if you would 
submit a report to our committee with regard to the possibility 
of utilizing these choppers for the purposes that we're seeking 
and that's to upgrade General Seranno's efforts in Colombia.
    And I want to thank you, Mr. Chairman.
    Mr. Mica. Well, I want to thank you and the other members 
who have participated with us today. I also want to thank our 
panelists. We called you to testify so that we could work 
together to solve some of these problems.
    There is a level of frustration as a result of not being 
able to get the equipment to Colombia and the resources so that 
we could assist the Colombians, bring this situation under 
control. It certainly is in the vital interests of the United 
States when we have had last year over 14,000 Americans die 
from drug-related deaths, and that's just part of the number, 
and doubling in the number of heroin and overdose deaths.
    Mr. Cummings and I have served together for so long, and he 
tells me that the DEA reports 39,000 heroin addicts in 
Baltimore, he tells me it's closer to 60,000, which is almost 
10 percent of the population, an incredibly staggering amount. 
And when I go home, I'm met by mothers--I have been met by 
mothers who have lost a child--I come from an affluent area in 
central Florida, and I'm accosted by mothers who've lost a son 
or a daughter, and it's very hard for me to respond. And some 
of them have taken heroin, maybe this high, pure, deadly heroin 
one time and die as a result.
    So it's affecting everyone, and dramatically the cost is in 
the billions and billions to this Nation. So we're trying to 
stop drugs at their source.
    In September, we will be doing hearings on the southwest 
border. We're also anticipating hearings on our drug education 
program, where we funded $195 million, and we're going to see 
how that money has been spent. And we will also be doing 
hearings on the substance abuse programs, our grants through 
HHS, our health grants and other drug programs. That will be in 
September.
    I have a request for an additional statement to be entered 
into the record, this one by myself. Without objection, so 
ordered.
    [The prepared statement of Hon. John L. Mica follows:]
    [GRAPHIC] [TIFF OMITTED] T5738.077
    
    [GRAPHIC] [TIFF OMITTED] T5738.078
    
    Mr. Mica. Without objection, we will also, and with the 
permission of the minority, leave the record open for 
additional statements and questions for 3 weeks. And I might 
say that we have substantial additional questions. I don't 
think we've even scratched the surface of them for both the 
Department of State and Defense on this issue. So they will be 
submitted and be made part of the record.
    There being no further business to come before the 
subcommittee on criminal justice, drug policy and human 
resources, I declare this meeting adjourned.
    [Whereupon, at 1:24 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Dennis J. Kucinich, Hon. 
Dana Robrabacher, Hon. Roscoe Bartlett, and additional 
information submitted for the hearing record follow:]

[GRAPHIC] [TIFF OMITTED] T5738.079

[GRAPHIC] [TIFF OMITTED] T5738.080

[GRAPHIC] [TIFF OMITTED] T5738.081

[GRAPHIC] [TIFF OMITTED] T5738.082

[GRAPHIC] [TIFF OMITTED] T5738.083

[GRAPHIC] [TIFF OMITTED] T5738.084

[GRAPHIC] [TIFF OMITTED] T5738.085

[GRAPHIC] [TIFF OMITTED] T5738.086

[GRAPHIC] [TIFF OMITTED] T5738.087

[GRAPHIC] [TIFF OMITTED] T5738.088

[GRAPHIC] [TIFF OMITTED] T5738.089


</pre></body></html>
